                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                                    Inspection of
                                               Embassy Bogotá, Colombia

                                              Report Number ISP-I-11-41A, June 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                                         1
Context                                                                               3
Executive Direction                                                                   4
   Country Team and Interagency Relations                                             4
   Mission Strategic and Resource Plan                                                4
   Management Attention to Security and Emergency Preparedness                        5
   Leadership                                                                         5
   Morale Issues                                                                      5
   International Cooperative Administrative Support Services                          5
   Entry-Level-Officer Program                                                        6
   Contact Database                                                                   6
Policy and Program Implementation                                                     7
   Political Section                                                                  7
   Economic Section                                                                  10
   Foreign Assistance                                                                12
   Public Diplomacy                                                                  12
   Law Enforcement Coordination                                                      14
   Innovative Practice: NAS Police Scholarship Program-Colombian Ethnic Minorities   16
   Consular Section                                                                  17
Resource Management                                                                  25
Management Issues                                                                    27
   Human Resources                                                                   28
   Financial Management                                                              29
   International Cooperative Administrative Support Services                         30
   General Services Office                                                           32
   Regional Security Office Program Management                                       37
   Information Management and Information Security                                   37
Quality of Life                                                                      43
   Morale                                                                            43
   Community Liaison Office                                                          43
   Health Unit                                                                       43
   School Issues                                                                     44
   Employee Association and Cafeteria                                                45
   Affirmative Action and Equal Employment Opportunity                               45
Management Controls                                                                  46
   Vouchering                                                                        46
   Outstanding Travel Advances and Vouchers                                          46
   Cashiering                                                                        47
   Unliquidated Obligations for the Narcotics Affairs Section                        48
List of Recommendations                                                              49
Informal Recommendations                                                             55
Principal Officials                                                                  58
Abbreviations                                                                        59

                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Key Judgments
  •   Embassy Bogotá is one of the largest U.S. missions in the world, with over 3,500
      personnel representing 42 agencies and their components. The Chief of Mission provides
      strong overall direction and policy guidance. U.S. programs, focusing principally on
      counternarcotics and counterterrorism, are successful and carried out with a high degree
      of interagency cooperation and coordination.

  •   The United States played a major role in the success Colombia has achieved in reducing
      the threat from narcotics and terrorism. As Colombia increasingly assumes responsibility
      for these programs, U.S. policy is shifting to more traditional bilateral diplomacy.
      Nevertheless, while some agencies are downsizing, the majority of law enforcement
      agencies do not envision a reduction in staff.

  •   The International Cooperative Administrative Support Services (ICASS) platform is
      underresourced and struggling to provide adequate services to the mission population, as
      well as to a large number of official visitors and the 6,700 temporary duty personnel per
      year. The mission should take a bold and creative approach to the support platform and
      shift some of the burden from the Department of State (Department) as the sole ICASS
      provider to other entities such as the narcotics affairs section (NAS), the U.S. Agency for
      International Development (USAID), and the Drug Enforcement Administration (DEA).

  •   Despite the findings of two previous inspections and one compliance follow-up review in
      the past 11 years, Embassy Bogotá has not taken steps to strengthen the ICASS platform
      sufficiently to resolve management shortcomings. Many of these management concerns
      that recur in each inspection are related to the mission’s inability to meet standards of
      efficiency. The Ambassador and deputy chief of mission (DCM) must take a more
      aggressive stance to address this continuing pattern of underperformance and have
      committed themselves to doing so.

  •   The political and economic sections will have new responsibilities as the diplomatic
      effort expands in areas such as energy, climate change, and science. Environment,
      science, technology, and health (ESTH) cooperation will play an important role in this
      new bilateral orientation. The mission’s current ESTH resources will need reinforcing to
      meet these new requirements.

  •   Although the consular section provides excellent services to a large and growing
      Colombian clientele and to a U.S. citizen population living in a still somewhat dangerous
      environment, the critical consular fraud management portfolio suffers from weak
      leadership.




                                         1
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


    •   The regional security office (RSO) provides effective security to American employees
        and families in a moderate danger environment. Physical security has improved on the
        embassy compound, but significant vulnerabilities remain. There is a large backlog of
        background investigations and a shortage of locally employed RSO staff to process the
        requests.


The inspection took place in Washington, DC, between January 3 and 28, 2011, and in Bogotá,
Cartagena, and Barranquilla, Colombia, between February 1 and 24, 2011. (b) (6)




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        Colombia, with its population of 44 million people and an area of 440,000 square miles,
is one of South America’s largest countries. The capital and largest city is Bogotá, with a
population of approximately 8 million. Other important cities include Medellin, Calí,
Barranquilla, and Cartagena. The United States is Colombia’s chief trading partner. The two
countries signed a U.S.-Colombia Free Trade Agreement in 2006 that the Administration plans
to send to Congress in 2011.

         Colombia has become a democratic success story in recent years. Once plagued by
guerrilla insurgencies and murderous paramilitaries, with wealthy drug lords controlling major
cities, Colombia is now in the midst of a political and economic renaissance. Under former
president Alvaro Uribe, the narcoterrorist Revolutionary Armed Forces of Colombia was beaten
back, the drug cartels of Cali and Medellin were significantly weakened, and a poor human
rights record began to improve. In the summer of 2010, Colombia elected President Juan Manuel
Santos. For the first time in recent election cycles, public safety and state security were not the
leading issues for voters. Instead, Colombians were focused on economic issues: unemployment,
inflation, and health care.

        Since 2001, Colombia’s estimated annual cocaine production potential has decreased by
61 percent, from 700 to 270 metric tons. The United States has made a major investment in
helping Colombia address the narcotics problem. The United States provided more than $7.4
billion (approximately $5.9 billion from the Department of State (Department) and U.S. Agency
for International Development (USAID), and $1.5 billion from the Department of Defense for
Plan Colombia and its follow-on programs from FYs 2000 through 2010. With training provided
by the United States, the Colombians have made significant progress in taking over a number of
counternarcotics programs. Other U.S. priorities in Colombia include counterterrorism; bilateral
cooperation in environment, science, technology, and health (ESTH); promotion of democracy,
human rights, and the rule of law; and promotion of trade and economic development.

       Mission Colombia’s management follows a “one mission, one team” approach in
carrying out its programs to implement U.S. policy goals. Overall direction and interagency
coordination have been exemplary for a number of years. Washington agencies have cited
Colombia as a model for counternarcotics programs in the region. With Colombia gradually
assuming ownership of counternarcotics programs, U.S. policy efforts can increasingly turn to a
more traditional bilateral diplomatic focus.

        Although the direct-hire presence has been reduced by 12 percent over the past 2 years,
Embassy Bogotá remains the largest mission in Latin America and one of the largest in the
world. There is an embassy branch office (EBO) in Cartagena that is staffed primarily by DEA
employees, along with Department of Homeland Security and Department of Defense offices,
and a consular agency in Barranquilla. The mission’s total budget in FY 2010 was $596 million.
This figure includes bilateral assistance to Colombia of approximately $500 million, with major
programs by DEA, the Bureau of International Narcotics and Law Enforcement Affairs, NAS,
the Department of Justice, the Department of Defense, and USAID.
                                           3
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Executive Direction
Country Team and Interagency Relations

        Relations among the 42 agencies and their components are excellent and have been for a
number of years. At post for less than 6 months, the present Ambassador exercises strong
leadership, with a focus on strategic direction. He is assisted by a DCM who is on his fourth tour
in Bogotá, having previously served as director of NAS and overseen one of the largest programs
in the mission. The Ambassador and DCM chair weekly country team meetings and regular
meetings of working groups in specific cluster areas. All of the agencies and sections at post
praised the cooperation and the good relations among the country team participants. Each
agency’s Washington headquarters described Mission Bogotá as a model of effectiveness in
carrying out counternarcotics and counterterrorism programs.

Mission Strategic and Resource Plan

        The Mission Strategic and Resource Plan (MSRP) process is overseen by the DCM, with
guidance from the Ambassador. Subject-matter managers are designated to lead the interagency
goal-paper teams. The front office offers all sections and agencies the opportunity to comment.
The draft is reviewed and extensively edited in an iterative process, including by the DCM and
the Ambassador. Mission leadership commented that they did not receive any feedback on their
MSRP from Washington, nor have they received any guidance on MSRP preparation for the past
2 years.

        Over the past 10 years, the United States has provided more than $7.4 billion to Plan
Colombia and its follow-on programs to assist the host government in its counternarcotics and
counterterrorism efforts. As progress continues to be made, and as Colombia increasingly takes
ownership of these programs, mission leadership is adjusting the focus of the U.S. effort to
support the host government’s development objectives through the mission’s Colombia Strategic
Development Initiative (CSDI). Future U.S. engagement will be characterized by a more
traditional diplomatic relationship based on trade, economic, and multilateral issues.

        With more emphasis on CSDI, the United States may reduce foreign assistance for some
programs, perhaps significantly. At the same time, U.S. funding for other drug and law
enforcement programs may increase. The Department is considering the expansion of foreign
assistance to neighboring countries on a regional basis, possibly using Colombia as a platform.
The implications of this complex set of possibilities go beyond the normal MSRP review.

Recommendation 1: Embassy Bogotá should conduct a review of its foreign assistance
program, to include all sections and agencies, to develop a comprehensive plan for meeting the
challenges of a changing policy environment in the years ahead. The strategy should include a
description of the resources needed to implement the plan and should be submitted to the
Department of State for approval. (Action: Embassy Bogotá)



                                          4
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Management Attention to Security and Emergency Preparedness

         Although the Government of Colombia has made great strides in reducing terrorism,
Embassy Bogotá is still a danger pay post, and mission leadership pays close attention to security
and emergency preparedness. During the inspection, the OIG team observed an emergency
action committee meeting, chaired by the chargé d’affaires, which reviewed measures to address
the current threat environment. The front office values and relies upon the RSO to provide
information on conditions in Bogotá and throughout Colombia. Working with the RSO, the
consular section distributes information on security to private American citizens, whether
resident or visiting. During the inspection, the OIG team reviewed with the mission the need to
ensure that security advice on potential threats is the same for private Americans as it is for U.S.
officials and that there is no double standard. (See the Consular Section of this report for more
detail.)

Leadership

         All of the sections and agencies gave high marks to both the Ambassador and the DCM
for strong command of the issues and strategic direction of programs and policies. The Chief of
Mission and DCM exercise oversight through a well-structured series of working groups as well
as in individual meetings. Under the Chief of Mission’s direction, the country team is
successfully carrying out multimillion dollar counternarcotics and counterterrorism programs of
high importance to the United States as well as to the host government. During the inspection,
the OIG team encouraged mission leadership to interact more frequently with units with less
visibility to the front office, such as the consular section and the community liaison office.

Morale Issues

        OIG questionnaires did not indicate significant morale issues at Embassy Bogotá. Most
personnel arrive knowing that Bogotá is a hardship/danger pay post and are pleasantly surprised
to find conditions better than they had expected. In OIG interviews many employees did,
however, express frustration with management support services. Consular officers, who are
mostly first- and second-tour (FAST) officers, are faced with an enormous workload in one of
the busiest visa-issuing posts in the world. Nevertheless, they remain motivated and cohesive.
The community liaison office provides activities and counseling to help maintain morale.

International Cooperative Administrative Support Services

        Embassy Bogotá’s management section is dedicated and hard working but understaffed.
The ICASS provider-to-employee ratio is one of the lowest in the world. Employee
dissatisfaction with management services is widespread, especially in the areas of vouchering
and housing. A number of employees have had water and electricity cut off in their residences,
and vendors sometimes decline to provide services to the embassy because of nonpayment of
bills. At the EBO in Cartagena, the lack of permanently assigned on-site ICASS personnel means
that services are frequently not available. Some of these problems are systemic, due to lack of
personnel and resources, but increased executive direction to ensure greater transparency and
communication between the management section and its customers would help. The OIG team
                                           5
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

identified serious management control weaknesses and discussed with the Ambassador and
DCM the need to devote more front office attention to these areas. Resource management issues
are discussed in detail later in this report.

Entry-Level-Officer Program

       Both the Ambassador and DCM attach importance to mentoring FAST officers. Both
have periodic brown bag lunches with FAST officers: the Ambassador for a general discussion,
and the DCM usually on a specific topic, sometimes at his residence. The FAST officers at
Embassy Bogotá number between 40 and 50, with the large majority in the consular section.
They are active both socially and professionally, have their own link on the embassy Web site,
and have organized themselves into a FAST committee that meets periodically to discuss issues.
The FAST committee developed its own proposed mentoring program that was approved by the
DCM, and the Ambassador met with FAST officers as a group to inaugurate the mentoring
program. The OIG team met with the FAST committee separately to discuss relevant issues.

Contact Database

        Embassy Bogotá does not have a central contact database as a clearinghouse for all
sections’ contacts. For large events, the protocol office asks each relevant section for a guest list,
and these lists are combined into an Excel spreadsheet to create a master guest list. This process
is time consuming, as protocol staff must look through the master list for each event for
duplications, misspelled names, and wrong addresses. When guest lists are assembled on short
notice, multiple spellings for the same name occasionally slip through, resulting in one person
receiving as many as three invitations (two with the invitee’s name misspelled) to the same
event. This is an embarrassment for both the recipient of the invitation and the embassy. The
Fourth of July celebration, which has a guest list of over 1,000, is an especially serious problem.
If the protocol office had an embassy-wide contact database, the assistants could update it
regularly to ensure that names are spelled correctly and contact information is current. Key
embassy staff, such as section heads and selected senior locally employed (LE) staff, could also
have access to the database to keep contacts current.

Recommendation 2: Embassy Bogotá should create and implement a central contact database
as the exclusive source of guest lists for medium and large events. (Action: Embassy Bogotá)




                                            6
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political Section

Reporting

        The political section has a relevant reporting plan that generates products that receive
praise from Washington consumers. Political reporting may have suffered somewhat from the
WikiLeaks scandal, especially in its immediate aftermath, when the post temporarily suspended
its reporting. Formal reporting soon resumed, however, although at perhaps a slower pace than
before. Since WikiLeaks, mission contacts have engaged with embassy officers in a more
guarded fashion than in the past.

        The embassy has no policy governing the use of cables, record emails, and working
emails in post reporting. At present, few, if any, officers are using record emails, and few
reporting officers feel adequately trained in the State Messaging and Archive Retrieval Toolset
(SMART). There is no mechanism to ensure that key post communications are tracked and
recorded as the Department mandates.

Recommendation 3: Embassy Bogotá should establish a written post policy governing the use
of cables, record emails, and working emails and develop a training regimen for mission
personnel who create and administer such cables and emails via the State Messaging and Archive
Retrieval Toolset. (Action: Embassy Bogotá)

Organization of the Political Section

         The head of the political section is an FS-01 officer. The section has two FS-02 deputies,
a mid-level refugee coordinator (funded by the Bureau of Population, Refugees, and Migration
(PRM)), as well as other functional officers in areas such as human rights, political-military
affairs, and labor. All officers maintain close and functional working relations with host country
counterparts in ministries, nongovernmental organizations, and multilateral organizations. The
officers provide oversight and mentoring of LE staff members, who are capable and enjoy a high
level of morale.

        One way for the Chief of Mission to shift the character of relations toward more
traditional cooperation is through the Free Trade Agreement, to be sent to Congress in 2011.
Another is the High-Level Partnership Dialogue (HLPD) that the Deputy Secretary inaugurated
in November 2010. The HLPD established a bilateral commission with six committees on topics
such as human rights, ESTH, and economic development. Also in 2010, the Secretary signed a
new bilateral science and technology agreement through which a large number of U.S. agencies
participate with Colombian counterparts.

       This ongoing shift has significantly increased the political and economic sections’
responsibilities and tasks in the mission, and the grades of the section chiefs should reflect their
enhanced leadership roles in policy development and implementation. The political section chief

                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

position is undergraded according to Department position classification standards, in comparison
to other missions of this size, and in relation to the mission’s other section and agency heads.
The position requires seniority and experience to enhance the role of the Department in moving
the Ambassador’s transitional agenda forward. As head of one of the Department’s flagship
sections, the political section chief is one or two grades below what is normal and is below that
of other country team and Department section chiefs. This arrangement conveys an optic that
these positions are less important to the mission’s agenda than other agency and Department
sections, which is not the case in reality.

        As now staffed, the political section has two deputy heads of section. At the deputy level,
the section suffers some redundancy in and overlap of responsibilities with the subordinate
officers. At the same time, as detailed in the Economic Section of this report, there is a critical
need to create a new ESTH position in the economic section to assist with this burgeoning
portfolio. By shifting one of the two political section deputy positions to the economic section to
create a new mid-level ESTH position, the mission will gain in terms of its effectiveness and
overall capabilities.

Recommendation 4: Embassy Bogotá, in coordination with the Bureaus of Western
Hemisphere Affairs and Human Resources, should revise the position description of the political
counselor to reflect changed and more complex duties and submit it to the Bureau of Human
Resources for reclassification review. (Action: Embassy Bogotá, in coordination with WHA and
DGHR)

Recommendation 5: Embassy Bogotá, in coordination with the Bureaus of Western
Hemisphere Affairs and Human Resources, should reprogram one of the FS-02 deputy political
counselor positions (position number 10-268001) as a new FS-02 environment, science,
technology, and health position in the economic section. (Embassy Bogotá, in coordination with
WHA and DGHR)

Recommendation 6: Embassy Bogotá, in coordination with the Bureaus of Western
Hemisphere Affairs and Human Resources, should revise the position description of the deputy
political counselor (position number 10-157001) to reflect changed and more complex duties and
submit it to the Bureau of Human Resources for reclassification review. (Action: Embassy
Bogotá, in coordination with WHA and DGHR)

Human Rights and Labor

        The Government of Colombia has made good progress in combating human rights
abuses. To monitor this progress and maintain a dialogue with the host government,
nongovernmental organizations, and other parties, the political section has a full-time human
rights officer and a labor officer. The human rights officer also coordinates with a three-person
vetting unit that was established in response to the Leahy Law, as amended. Before any agency
can propose Colombian officials, military or civilian, for U.S.-financed training, the officials’
names must be vetted to ensure that they are not human rights offenders. Bogotá’s vetting unit
reviews some 35,000 individuals and 600 military units annually. Once a request arrives, the
section enters names into an online database, queries various mission offices for relevant
                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

information, and either approves or denies the case. Names are also entered into an online
Bureau of Democracy, Human Rights, and Labor database. Based on available information, the
OIG team determined that the process is highly accurate.

Displaced Persons

        The political section has a full-time, mid-level officer that is funded by PRM. This officer
serves as the regional refugee coordinator and is responsible for emergency assistance to the
country’s internally displaced persons and for those refugees who spill over from Colombia’s
neighboring countries. The Government of Colombia has registered more than 3.6 million
internally displaced persons in Colombia since 1997; nongovernmental organizations place the
figure at more than 5.3 million since 1985. The United Nations Refugee Agency estimates that
an additional 335,000 Colombians have sought refuge in neighboring countries. PRM funds
assistance principally through contributions to the United Nations High Commissioner for
Refugees and the International Committee of the Red Cross and secondarily through cooperative
agreements with international nongovernmental organizations that provide complementary
assistance. In FY 2010, PRM budgeted more than $36 million for programs in and around
Colombia. Under an arrangement made in 2001with USAID, PRM provides emergency
assistance for the first 90 to 120 days to displaced persons, after which USAID has programs for
the longer-term displaced persons. PRM and embassy officers estimate that the amount of PRM
funding for emergency displaced persons assistance currently ranges from $12 million to $20
million per year.

        The program as now administered suffers from several problems. First, there is no
tracking of displaced persons that might allow a handoff from PRM to USAID programs, and
any handoff that does occur is more coincidental than planned. Second, the number of newly
displaced persons in Colombia is rapidly falling, by 30 to 50 percent in 2008 according to
various estimates, with an equal percentage drop in 2009. Meanwhile, Government of Colombia
support for internally displaced persons has grown immensely from $67 million in 2003 to $750
million per year in 2010. This reduction in the number of internally displaced persons,
accompanied by the availability of much greater host country support, raises the question of the
need for continued U.S. displaced persons emergency assistance. Eliminating the assistance
could provide a savings of $12 million to $20 million. Alternatively, some of the assistance
identified for emergency programs could be rechanneled to refugee programs around Colombia’s
borders.

Recommendation 7: Embassy Bogotá, in coordination with the Bureau of Population,
Refugees, and Migration, should review the effectiveness of emergency internally displaced
person programs in Colombia to save resources and/or retarget assistance. (Action: Embassy
Bogotá, in coordination with PRM)




                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Economic Section

        The economic section is at the epicenter of the mission’s efforts to build new structures
for bilateral cooperation. For example, the section is the action office for the push to ratify and
implement the Free Trade Agreement, for the new agreement for ESTH cooperation, and for four
of the six committees under the HLPD.

        The chief of the economic section is an FS-01 officer. The section also includes an FS-02
deputy, a trade officer, and other entry-level and rotational officers. Just as with the political
section, the economic section’s roles and responsibilities are increasing. Given the section’s size
and complexity, upgrading the chief of the section to a Senior Foreign Service grade is consistent
with Department classification standards, would encourage bidding on the position from the
service’s most experienced officers, and would give the incumbent a stronger and more
influential position in the intramission process. In the past, the economic section has not had
sufficient status in the mission hierarchy. At the time of this inspection, the economic counselor
did not have a place at the country team table but rather sat against the wall. However, with a
country team of 27 members, space is at a premium.

Recommendation 8: Embassy Bogotá, in coordination with the Bureaus of Western
Hemisphere Affairs and Human Resources, should revise the position description of the
economic counselor position to reflect changed and more complex duties and submit it to the
Bureau of Human Resources for reclassification review. (Action: Embassy Bogotá, in
coordination with WHA and DGHR)

        The economic section does not have adequate space. Five officers, the section’s office
management specialist, and the office equipment and cabinets are located in a room of only 656
square feet, a space very small in terms of the standard utilization rate in Department facilities.
The recommendation in this report to place an ESTH officer in the section will add another
person to the mix. The problem goes beyond insufficient space. The small office has no
windows, and the air conditioning turns on every few minutes with a boom that shakes the entire
section.

       Informal Recommendation 1: Embassy Bogotá should explore options for improving
       the space now allocated to the economic unit to enhance the office environment and
       expand the amount of space available to the unit.

Environment, Science, Technology, and Health

        ESTH cooperation is a major part of the new bilateral orientation between the United
States and Colombia. The agreement signed between Colombia and the United States in June
2010 formalized cooperation with a host of U.S. Government agencies such as the Department of
Health and Human Services, the National Oceanographic and Atmospheric Administration, the
National Science Foundation, the Smithsonian Institution, the U.S. Geological Survey, the
Department of Agriculture, the Department of the Army, the Department of the Navy, and more.
On the Colombian side, the country’s President has designated science and technology as one of
the five pillars of his presidency, and the government is allocating 10 percent of its petroleum
                                          10
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

income to science and technology projects. The ESTH program is also a prominent part of the
HLPD. The ESTH agreement entails regular meetings, often attended by many U.S. agencies and
headed at the Assistant Secretary level. Colombia has already become one of the United States’
largest ESTH partners in Latin America.

        The embassy’s ESTH officer is a rotational officer who is located in the economic section
and who also has other designated responsibilities. A rotational position is inadequate for the
volume and substance of the rapidly expanding ESTH dialogue with Colombia. Too large a share
of each rotational officer’s time is necessarily spent on a learning curve, there is too little time to
develop sufficient expertise required for substantive discussions with counterparts, and because
of the short rotational period, one of the section’s LE staff members must take responsibility for
developing and maintaining contacts. With the section’s rapidly growing responsibilities in fields
such as trade, there will likely be less opportunity than in the past to provide backup for the
ESTH officer in times of peak demand, such as for meetings associated with the HLPD and
ESTH agreements.

       Other sections in the mission, such as USAID and NAS, have programs aimed at
promoting cooperation in ESTH areas. NAS, for example, recently supported a Ministry of
Environment Youth for the Environment conference. With the growing complexity of mission
ESTH programs, an interagency ESTH working group could provide an opportunity for useful
collaboration and important coordination.

       Informal Recommendation 2: Embassy Bogotá should initiate an interagency
       environment, science, technology, and health working group to coordinate mission
       initiatives in these areas.

       A regional ESTH officer in Lima covers Colombia, but this office has provided neither
operational support nor, due to its location outside the country, much substantive support. In fact,
when the current ESTH officer is stretched so severely, coordinating with the regional office
may entail more cost than benefit.

        To refocus mission resources toward meeting ESTH needs, this report has recommended
that one of the mid-level positions in the political section be transferred to the economic section
to create a full-time FS-02 level ESTH position (see Recommendation 5).

Trade Promotion

        As the local business environment has stabilized and become more secure, the interest of
American firms in trading with and investing in Colombia has grown rapidly and visibly. The
economic section is working closely with both the Foreign Commercial Service and the Foreign
Agricultural Service to support the increased flow of American business people seeking
opportunities in Colombia. For example, the mission supported one trade mission in 2007, four
in 2008, six in 2009, and five in 2010, and it already has nine planned for the first half of 2011.
Passage of the Free Trade Agreement will result in a further explosion of work. The section’s
trade officer will be a point person for coordinating Free Trade Agreement implementation.

                                           11
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Foreign Assistance

       One of the United States’ largest foreign assistance efforts in the world is in Colombia. A
multitude of agencies, from the Department of Justice to USAID, have programs aimed at
reducing the production and exportation of narcotics, finding alternative forms of livelihood, and
providing security so that these programs can proceed as smoothly as possible. The Chief of
Mission, assisted by the DCM, coordinates this extensive interagency process through a series of
committees that function well on both the executive and working levels.

        The CSDI is the primary framework through which most U.S. foreign assistance is
channeled. A driving concept behind the CSDI is that U.S. assistance must support and gradually
make way for Colombia’s own efforts to meet its development needs. For this reason, CSDI
works hand in hand with the Colombian Government’s National Consolidation Plan, which
expands government presence into Colombia’s most poverty-stricken and vulnerable areas, to
deal with drug trafficking and cultivation, human rights violations, and displacements caused by
the presence of illegal armed groups. CSDI coordinates the foreign assistance strengths of
USAID, NAS, the U.S. Military Group, and the Department of Justice by focusing, combining,
and sequencing aid in priority regions.

Public Diplomacy

        The public affairs section (PAS) is in lockstep with the Under Secretary for Public
Diplomacy and Public Affairs’ Strategic Framework for Public Diplomacy. PAS is increasing its
engagement with Colombian youth and historically marginalized communities through a
combination of digital media outreach, English language programs, educational advising, and
face-to-face interaction with embassy officials. An American studies program, an active
Fulbright exchange program, and an International Visitor Leadership Program for rising
members of Colombia’s civil society, are helping develop relationships with future leaders that
will be critical if U.S.-Colombian relations are to meet U.S. policy goals.

Reorganizing the Public Affairs Section to Meet Mission Objectives

        PAS has been aggressive in restructuring itself to respond to the changes dictated by the
MSRP and the Under Secretary for Public Diplomacy. By reprogramming existing positions and
creating new ones, with initial funding from the Bureau of Western Hemisphere Affairs (WHA),
the section has created LE staff positions that enable it to expand outreach to new audiences and
employ social media more effectively. As PAS makes new contacts and reengages important
contacts, such as alumni of U.S. Government exchange programs, the embassy will be assured of
well-informed partners that are knowledgeable about current and potential U.S. and Colombian
cooperation as the CSDI moves forward.

Educational Advising

       PAS works with the Education USA coordinator for Colombia at the Fulbright
Commission in Bogotá on a wide variety of educational advising activities in Colombia. With
$60,000 allocated by the Bureau of Education and Cultural Affairs in FY 2010, PAS has
                                         12
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

provided funding to binational research centers for equipment and advising center materials,
reference books, and the development of a national outreach plan to underserved regions.

         PAS and the Education USA coordinator provide assistance to 11 advising centers, 9 of
which are based at binational research centers spread around the country and are difficult for
PAS to monitor. In March of each year, PAS organizes a country-wide conference for all
educational advising centers to set out the agenda for the year and consult on problems faced by
the individual centers. The Bureau of Education and Cultural Affairs’ regional educational
advising coordinator, located in Lima, attends this conference. In 2010, this was her only visit to
Colombia to assist specifically with educational advising activities. More frequent visits by the
regional coordinator would allow PAS to provide more thorough oversight of advising centers’
activities.

Recommendation 9: The Bureau of Educational and Cultural Exchange should revise the
position description for the Lima-based regional educational advising coordinator to require two
visits to Colombia per year, including visits to, and detailed reviews of, the education advising
activities of binational centers outside Bogotá that receive U.S. Government assistance. (Action:
ECA)

Grants Management

        PAS provides grants to a wide variety of Colombian binational centers, nongovernmental
organizations, and individuals to carry out activities in support of MSRP goals. In FY 2010, PAS
awarded a total of 107 grants worth $915,877. PAS does not always receive final reports from
grant recipients as required by the Federal Assistance Policy Manual (Section 5.2, Final Reports)
and as indicated clearly in the award document signed by each grant recipient. PAS did not
receive final reports for 42 of the 103 grants awarded and completed in FY 2010. As a result,
PAS cannot always be aware of the final results of the activities undertaken under a grant.
According to the public affairs officer (PAO) and administrative assistant in charge of grants
administration, the majority of late or nonexistent reports were for grants undertaken in remote
sections of the country. Although the PAO did attempt to collect final reports from these
grantees, the efforts were insufficient. The PAO is now addressing this problem by developing a
matrix that details the stage of each grant, including whether a final report is delinquent.
Grantees whose reports are late are subject to a withholding of the final 20 percent payment
under the grant and receive a formal letter from the PAO. The PAO is also training his secretary
to assist the administrative assistant in collecting final reports.

Recommendation 10: Embassy Bogotá should establish and implement procedures so that all
grant recipients submit a final report of their performance under the grant within 90 calendar
days after the project period end date. (Action: Embassy Bogotá)

Reporting Burden

       PAS is hampered by an increasingly heavy reporting burden. Assurances from the Under
Secretary for Public Diplomacy and Public Affairs that requests from Washington would be
reduced, and the statement in the Quadrennial Diplomacy and Development Review that “we
                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

will streamline reporting requirements so our diplomats have more time to engage their
counterparts and the public,” have not slowed down the continuous flow of duplicative taskings.
The mission activity tracking system, devised in 2004 to provide one-stop public diplomacy
reporting, was to replace the hodgepodge of reporting requested by various entities in both the
regional and functional public diplomacy bureaus. Instead of consulting the mission activity
tracking system for reporting on recent post programs and outreach, however, officials in WHA
who assemble daily activity reports, monthly newsletters, and other ad hoc reports often ask PAS
to report separately on programs of note. The director of WHA’s Office of Public Diplomacy and
Public Affairs is aware of and concerned about the reporting burden.

Recommendation 11: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Public Diplomacy and Public Affairs, should streamline the reporting requirements
placed on Embassy Bogotá’s public affairs section by not requesting information already
contained in the embassy’s mission activity tracking system. (Action: WHA, in coordination
with R)

Law Enforcement Coordination

Overview

       Plan Colombia and its follow-on programs have been successful in reducing drug
production and trafficking. Within Embassy Bogotá, 12 law enforcement agencies and offices,
along with NAS, the RSO, Department of Defense, and USAID, coordinated to help achieve this
goal. The Bureau of International Narcotics and Law Enforcement Affairs, through NAS Bogotá,
has contributed close to $3 billion since FY 2000 to assist in capacity building and sustainability
of counternarcotics, counterterrorism, and anticrime organizations.

        Now the task before the embassy is to maintain, in partnership with the Government of
Colombia, the momentum of the current counternarcotics programs while branching out to other
areas, as described elsewhere in this report. Although NAS and the Department of Defense are
gradually downsizing, most law enforcement agencies do not plan to reduce their current staffing
levels, and some are projecting increases. USAID will play a prominent role while staying within
its current staffing cap. The embassy will use CSDI to coordinate the foreign assistance strengths
of USAID, NAS, the Military Group, and the Department of Justice to assist Government of
Colombia planning and capability.

         The Department has expressed an interest in increasing cooperation and collaboration
with the Government of Colombia as the latter takes the lead in regional capacity-building
initiatives with neighboring countries. As noted in Recommendation 1 of this report, the embassy
should conduct a long-range review to address continued U.S. counternarcotics foreign
assistance support to Colombia and to neighboring countries, including the future roles and
missions of the U.S. law enforcement agencies, Department of Defense, and USAID, and the
resources needed to implement whatever strategies are developed.

       The law enforcement working group meets on a regular schedule and is complemented
by informal coordination among law enforcement agencies. Although the working group
                                          14
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

concisely addresses law enforcement issues during these meetings, there is no published agenda
or minutes of meeting proceedings.

       Informal Recommendation 3: Embassy Bogotá should keep minutes of the law
       enforcement working group meetings to maintain a record of issues discussed and
       decisions made during the proceedings.

Narcotics Affairs Section

        Embassy Bogotá’s NAS is one of the largest in the world, with 134 employees and 664
contractors. The FY 2010 NAS budget for all programs was approximately $244 million, a
significant decrease over a 3-year period from approximately $326 million in FY 2007.

        NAS is a self-sustaining unit within the mission. In some instances it has consolidated its
logistical support activities with other mission management sections and has also assumed
management responsibility to provide support to some mission-wide activities.

        Colombia’s estimated annual cocaine production potential has decreased since 2001 by
61 percent. The eradication programs, manual and aerial, have contributed to this reduction. The
manual eradication program requires high levels of security and enormous logistical support, and
it almost always results in social challenges when “outsiders” come in and destroy moneymaking
crops. Instead of measuring the numbers of “hectares eradicated,” the Government of Colombia
has initiated the more effective coca-free consolidation zones. These are areas in which the
Government of Colombia offers developmental assistance after coca eradication, along with
providing permanent government presence to counter the return of narcotics trafficker
organizations and gangs.

        Aerial eradication is the favored method of halting cocaine production, but the challenges
of eradication efforts have led to the adoption of different and more responsive approaches. The
aerial eradication program exceeded its 2010 eradication goal. There were 47 hostile fire
incidents, none of which resulted in loss of life or injury.

        Adverse weather conditions in 2010 caused the worst flooding in 40 years in Colombia
and produced a large number of landslides. Plan Colombia Helicopter Program (PCHP) aircraft
are strategically deployed to make significant contributions to humanitarian relief efforts in
addition to their primary mission, which is the eradication of cocaine. PCHP helicopters
transported 619,000 pounds of relief supplies and dike-building materials and provided more
than 48 hours of dedicated medical evacuations.

        The highlights of NAS-supported interdiction efforts go beyond the destruction of
cocaine laboratories and seizures of cocaine, marijuana, and heroin in Colombia. They include
extensive regional training provided by the Government of Colombia to neighboring countries.
In one training event in Colombia in 2010, 54 students from 11 Latin American countries
completed international jungle commando training.


                                          15
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Innovative Practice: NAS Police Scholarship Program-Colombian Ethnic Minorities


Innovative Practice: NAS, in cooperation with the Colombian National Police (CNP), offers
career opportunities to Afro-Colombians and other Colombian ethnic minorities in remote
Colombian municipalities.

Issue: Economic, social, and security instability on the Colombian Pacific coast have created
conditions favorable to narcotics traffickers and narco-based criminal gangs. These communities
are inhabited principally by Colombian marginalized ethnic minorities who have few economic
options and do not feel that the Government of Colombia is sympathetic to their plight.

Response: NAS and CNP jointly offered scholarships to selected CNP academies with the
stipulation that successful graduates spend the first 2 years of their national police careers in their
villages of origin. Initially, NAS and the CNP shared the costs of tuition, individual equipment,
and monthly stipends. The CNP has agreed to nationalize the program with some continued NAS
support. The Government of Colombia invested approximately $50,000 in 2010 and has agreed
to spend $500,000 in 2011. NAS also provides materials that the police may use for building
basic community medical, educational, and other facilities in conjunction with other USAID-
supported Government of Colombia consolidation projects.

Result: This program provides marginalized youth an alternative to recruitment into narco-
criminal activities. It establishes Government of Colombia presence in Colombian Pacific coastal
communities and modifies the perception of the police in remote areas. The program has been so
popular in its first year that the Government of Colombia has had to limit publicity for
scholarship applications.


Nationalization

        The sustainable nationalization of existing programs is a core goal of NAS Bogotá. The
Government of Colombia has proved its ability to take over programs previously supported by
the United States. The decrease in the NAS budget for foreign assistance programs in recent
years reflects this success. Nationalization will result in the following annual program cost
reductions. Some are already completed, and the ones enumerated here are proposed and/or
accepted.

    •    Air Bridge Denial (USSOUTHCOM)                     $1 million annually 1 (complete in 2012)
    •    ARAVI (CNP Air Service Support)                    $12.74 million (complete in 2014)
    •    NAS Aviation Unit                                  $59.2 million (complete in 2012)




1
 Although most denial programs are operated by the Department of Defense, NAS contributes to contract oversight,
which averages $1 million annually. This amount reflects a significant decrease from previous budget years.
                                              16
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

   The following figures show completed cost reductions for the indicated periods:

   •   ARAVI (CNP Air Service Support) (Jan 2004 – July 2010)               $22.66 million
   •   NAS Aviation Unit               (Dec 2007 – May 2010)                $37 million

The combined total NAS cost savings through nationalization programs is $263.2 million
($119.3 million for all completed and $143.9 million for proposed and accepted).

Cartagena Law Enforcement Coordination

       The principal U.S. law enforcement agencies in Cartagena are DEA, U.S. Immigration
and Customs Enforcement, and U.S. Customs and Border Protection. By far, the largest of these
agencies is DEA. These agencies cooperate closely with the Colombian Port Authority, Navy,
CNP, and NAS Bogotá. They also have excellent coordination in maritime interdiction
operations.

Consular Section

        The consular section does an excellent job in managing its growing workload. A strong
cadre of managers and LE staff ensure that visa operations, which are returning to prerecession
peaks, work smoothly. The visa referral program, however, is not in compliance with
Department policies. High-profile American citizens services, which are growing with the
pacification of the country and concomitant increase in tourism and investment, are outstanding,
but routine transactions, such as consular birth documentation, need attention. The section’s
fraud prevention unit (FPU) is weak.

        The consular section is integrated into the mission’s activities and works closely with
several agencies on matters of homeland security. (b) (5)




       Informal Recommendation 4: (b) (5)



Consular Section Physical Plant

        The physical plant of the consular section is cramped, with little room for expansion.
Public areas are adequate. The embassy is constructing a new canopy for the consular waiting
areas, which is critical in a rainy climate. Consular managers have overcome construction
disruptions and have installed many new signs to direct visitors and alleviate potential confusion.
                                          17
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Although the waiting area is adequate, the area outside the fence where applicants form a line is
half on sidewalk and half in dirt. During the frequent rains, some applicants stand in mud.

       Informal Recommendation 5: Embassy Bogotá should cover with stones or pavers the
       bare ground on which visa applicants stand while waiting in line.

        Consular visa staff members accept applications and finger scan clients in a consular
annex located in the outside visa waiting area. The building has a raised floor and a low ceiling.
The facilities maintenance office informed the consular section that the building must be
renovated and the floor lowered. Lowering the floor will require the consular staff to use tall
chairs to perform their work at the interview windows. Because several of the consular LE staff
members are short in stature, finding appropriate seating has been a challenge.

       Informal Recommendation 6: Embassy Bogotá should find reasonable seating
       accommodation for locally employed staff working in the consular annex before
       beginning renovations to the building.

Consular Management

         A robust rotational program gives entry-level officers a myriad of opportunities to
broaden their professional skills. Rotations vary from visa processing portfolios, to assignments
in other consular section units, to details in the embassy front office. In a well-intentioned effort
to provide professional development to as many officers as possible, the program features short
duration rotations, usually for 3 or 4 months. These short rotations mean that the officers move
out of the job just when they become proficient. Good management practices require that
employees have adequate time to learn their job. In addition, officers are often rotated out of
nonimmigrant visa (NIV) interviewing positions and into portfolios as little as 4 months after
arrival. Another negative result of the policy is that employees who are supervised in the various
portfolios have a rapid succession of supervisors and their performance reviews must be cobbled
together after the fact.

       Informal Recommendation 7: Embassy Bogotá should revise its entry-level-officer
       rotation program in the consular section to give officers 6-month portfolios, except when
       circumstances dictate shorter assignments.

Outreach

        More than 300,000 Colombians enter Embassy Bogotá’s consular section every year for
services. With such a huge number of consular customers, the mission is missing a golden
opportunity to take advantage of this public diplomacy audience. The possibilities include
optimization of applicant flow-through by using appointments; enhanced signage; presentations
of information about U.S. programs, goals, and activities in Colombia; and a public-diplomacy-
oriented visa refusal brochure for the 75,000 Colombian clients yearly who will not be traveling
to the United States.


                                          18
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 8: Embassy Bogotá should create a working group to find
       ways to take advantage of public diplomacy opportunities afforded by the 300,000
       Colombians who visit the consular section annually.

No Double Standard

        The dissemination of threat information at this danger pay post may violate the
Department’s “no double standard” policy. Some areas of Bogotá are off limits to U.S.
Government employees because they are considered too dangerous. However, these areas are not
identified as such in either the Colombia country-specific information sheet or the travel
warning.

        In addition, the embassy controls travel of its own employees throughout most of the
country by delineating two safe areas (the north coast between Cartagena and Santa Marta) and
the area around Bogotá (corresponding roughly to the Sabana de Bogotá plateau). The RSO
approves visits to the rest of the country on a case-by-case basis after reviewing the security
situation. Neither the Colombia country-specific information nor the travel warning mentions
these two safe areas.

        A third, lesser concern is the embassy’s use of hotels that are approved in advance by the
RSO. Although vetting hotels is commonplace for official travel, requiring embassy employees
to use the hotels while on personal travel again raises questions about possible double standard
issues.

        Fourth, the RSO issues email alerts to embassy staff about demonstrations or other
disruptions in traffic that might impede embassy employees and make them vulnerable to
criminal acts. The RSO does not send these alerts to a public Web site for the American traveling
public.

       The Department’s guidance on no double standard in Foreign Affairs Manual guideline 7
FAM 052.1 a. (1) applies to important security threat information, including criminal
information. It states that “[s]uch information, if shared by the Department with the official U.S.
community, generally should be made available to the non-official U.S. community if the
underlying threat applies to both official and non-official Americans.”

       There is no evidence that the travel restrictions for embassy employees for personal travel
are based on threats that would not also apply to private U.S. citizens in Colombia. Therefore,
the OIG team believes that the present system may violate the Department’s “no double
standard” policy.

Recommendation 12: Embassy Bogotá should request from the Department of State by record
communication a clarification of whether its dissemination of threat-related information is
consistent with the Department of State’s “no double standard” policy and alter any procedures
that do not comply with this policy. (Action: Embassy Bogotá)


                                          19
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Staffing and Customer Service

        Customer service in the American citizens services waiting room is not ideal. On one day
at 10:15 a.m., five parents and their infants were waiting for consular report of birth abroad
processing, while at the window an American woman was speaking to a consular officer about
her Colombian boyfriend’s NIV refusal. Because consular report of birth abroad applicants
arrive between 8:30 a.m. and 9:30 a.m., it is possible that some had been waiting for almost 2
hours.

       Informal Recommendation 9: Embassy Bogotá should revise its procedures for
       processing consular report of birth abroad cases to reduce the amount of time that
       applicants must wait for service in the American citizens services section.

Consular Agency Barranquilla

       The consular agency in Barranquilla is located on the fifth floor of a modern office
building. Access is adequately controlled, and the facility comfortably houses the two employees
and the associated equipment. The agent has been working there for approximately 6 years, and
the LE staff for less than a year. Both LE staff employees report that they receive good
cooperation from the local authorities.

        In a review of procedures, the OIG team uncovered several anomalies. The monthly cash
accounting document, the daily accounting sheet, had not been completed correctly, and all funds
received appeared as “discrepancies.” In addition, a malfunction of the Automated Cash
Register System cash register in October 2010 resulted in a virtual Colombian peso 140,000
($70.00) overage. (The amount of money received was correct, but the Automated Cash Register
System did not account for it properly.) Although the error was explained by the cashier, there
was no written record of the event in the file, contrary to guidance in 4 FAH-3 H-397.3 through 4
FAH-3 H-397.6. In addition, the Automated Cash Register System cannot accept credit or debit
cards. (b) (5)


                                                 Consular agency staff reported that the embassy
had promised them a shredder on several occasions but had never sent one. These problems
create potential vulnerabilities and impede smooth agency operations.

Recommendation 13: Embassy Bogotá should increase supervision of the consular agency in
Barranquilla by establishing a policy of visiting the agency at least three times a year for at least
2 days each visit to confirm that the agency is following cash accountability procedures and has
the resources it needs to operate efficiently. (Action: Embassy Bogotá)

Nonimmigrant Visas

       Embassy Bogotá’s NIV workload remains the major element of its consular caseload, and
consular management estimates the NIV unit will process 290,000 cases in FY 2011. NIV
adjudications in Colombia take place in an environment replete with document fraud and verbal
                                           20
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

misrepresentation. Adjudicators must also remain alert to applicants with serious grounds for
ineligibility—including narcotics traffickers, money launderers, and terrorists—and their family
members. Although the overall refusal rate of 30 percent has remained stable over several years,
individual adjudicators’ performances varied considerably—refusal rates varied from 20 to 40
percent and the number of daily interviews ranged from 75 to 150.

       Informal Recommendation 10: Embassy Bogotá should require its nonimmigrant visa
       managers to establish a regular schedule for discussions on adjudication criteria and
       interviewing techniques to standardize the process and make refusal rates among officers
       more uniform.

       The OIG team determined that some NIV refusals were reopened by supervisors and
approved based on additional information not available during initial interviews. Although the
approving officers created appropriate notes and scanned relevant correspondence into the cases,
the applicants did not submit new NIV applications or pay required fees, as stipulated in 9 FAM
41.121 N2.3-7 and N2.5, which describe internal reviews of refusals and reapplication
procedures, respectively.

       Informal Recommendation 11: Embassy Bogotá should establish and implement a
       policy requiring the submission of new applications and fees for all cases of reconsidered
       nonimmigrant visa refusals per Department of State guidance.

        Embassy Bogotá staff would like to install four additional visa interview windows to ease
bottlenecks, primarily in NIV processing. The OIG team believes that careful rescheduling of
NIV appointments can allow the section to make additional use of its existing windows. An
adjusted workflow will also reduce applicants’ waiting times. During the inspection, the OIG
team observed that priority applicants—foreign diplomats, business program travelers, and some
referrals—had been waiting for more than 90 minutes to be interviewed.

       Informal Recommendation 12: Embassy Bogotá should revise its nonimmigrant visa
       priority processing procedures so that priority applicants are seen and interviewed in a
       timely manner.

Visas Viper

        Embassy Bogotá’s Visas Viper committee conducts its business with active consular
participation. The DCM chairs monthly meetings, and all relevant offices at the embassy attend.
The embassy submitted four of the monthly reports in the past year slightly past reporting
deadlines but otherwise followed proper procedures in reporting significant new information.

Nonimmigrant Visa Referrals

        The NIV referral system in Bogotá does not follow the 9 FAM Appendix K guidelines
that require specific procedures for submitting and adjudicating these NIV applications. In the
time period from February 2010 to February 2011, the consular section processed 2,102 NIV
referrals. In the 6 months before the August 2010 arrival of the present consul general, the mix of
                                          21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Class A and B referrals was typical of that of other posts. In the 6 months since August 2010, the
number of Class A referrals has plummeted by 90 percent.

                            Embassy Bogotá Referrals 2010–2011
                                                            Class A                Class B
   Period                Dates         Total Referrals     Referrals               Referrals
   1 Year        2/16/2010 – 2/15/2011      2,102             401                   1,701
  6 Months       2/16/2010 – 8/15/2010      1,007             368                     639
  6 Months       8/16/2010 – 2/15/2011      1,095              33                   1,062

        In addition, from August 2010 to February 2011, the consul general personally
adjudicated only four referral cases, two of them in the 2 weeks following the arrival of the OIG
team. The FS-01 NIV chief had adjudicated only 10 Class A referrals and 12 Class B referrals in
that same 6-month period.

        According to the post referral policy, the consular section was processing cases of
prominent and influential travelers as Class B referrals. In addition, the FS-02 deputy NIV chief
was routinely adjudicating Class B referrals. In the absence of the deputy NIV chief, the
responsibility for referral adjudication devolved downward to a recently tenured entry-level
officer. Because of post’s policy of discouraging Class A referrals, the entry-level officer is in
effect adjudicating what normally would be Class A referrals in a consular section that has an
FE-MC (minister counselor), an FS-01, and an FS-02 officer. During the 6 months from August
2010 to February 2011, the entry-level officer backup referral adjudicator processed 120 cases,
more than five times as many as the NIV chief.

         Embassy Bogotá’s referral policy was originally based on 9 FAM Appendix K, Exhibit I.
The consular section had made a small number of key changes, such as adding a notation after
the header of the Class A criteria that require all potential referrers of Class A referrals to
“[Please discuss with Consul General in advance]”; a notation after the header in the Class B
criteria “[almost all Embassy Bogotá visa referrals]”; and a note in the paragraph discussing the
DS-2019 requirements that “Class B-referrals are preferred” for U.S. Government-sponsored
exchanged program participants. The effect of these changes is to alter the definitions of the
Criteria A and B referrals as presented in the 9 FAM exhibit, which is in violation of 9 FAM
Appendix K, 201 a. The end result is a 90 percent reduction in Class A referrals since August
2010.

        The OIG team reviewed a small sample of referrals conducted in the 6 months from
August 2010 to February 2011. About a quarter of the cases reviewed had no clear U.S.
Government interest noted on the referral form. Of particular concern to the OIG team were
referrals for informants (and their families) of the law enforcement elements of the mission.

Recommendation 14: Embassy Bogotá should establish and implement nonimmigrant visa
referral procedures that comply with Department of State guidance regarding Class A and B visa
referrals. (Action: Embassy Bogotá)


                                          22
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 15: Embassy Bogotá should draft and disseminate a notice from the
Ambassador to all potential referring officers in the mission that explains the changes to the visa
referral program. (Action: Embassy Bogotá)

Immigrant Visas

        The immigrant visa (IV) unit staffing levels, discussed in the 2006 OIG inspection report,
are adequate for workload in the near future. The IV unit processed more than 12,000
applications in 2010, a 9 percent increase from 2009. Colocated with its much larger NIV
counterpart, the IV unit competes for the same intake and interview windows during peak
periods. As a result, some IV applicants must wait as long as 5 hours for their interviews. During
the OIG inspection, the IV manager requested that the National Visa Center stagger appointment
times beginning in April 2011 to reduce existing interview wait times. This and other
adjustments to locally made appointments can also alleviate overall congestion at the intake and
interview windows and help maximize their use.

Fraud Prevention Unit

       Colombia has one of the most pervasive and sophisticated fraud environments in the
world. The FPU is staffed by three officers, an eligible family member (EFM), and four LE staff
members. In addition, an assistant regional security officer-investigator is colocated in the FPU.

         For several reasons, the FPU is not as important an element of the consular operation as it
could or should be. First, the unit chief has little overseas consular experience and has not
elucidated a strategic vision for the unit. She has also not created a fraud prevention plan, as is
required by the Consular Management Handbook (7 FAH-1 H-935.1 b.). Second, the rotating
officers are not selected from the longest serving officers in the section. For example, the deputy
fraud manager had only 4 months of visa experience in Bogotá before she rotated into the FPU.
Third, the unit spends a disproportionate amount of time performing activities that yield few
results. For example, the unit estimates that it spends 40 percent of its resources vetting groups of
Colombians to ensure that they are legitimate. Recently, no illegitimate groups have been
identified and the number of bogus group members has been very small. (b) (5)




        One measure of the dysfunction of the unit is the percentage of cases referred from the
visa interview line that are confirmed as fraudulent. In Bogotá’s case, in approximately 90
percent of the cases that the FPU reviewed, it found no evidence of fraud. That means that the
line officers do not have the knowledge to identify fraud and/or that they are reluctant to issue
visas without a check by the FPU. In any case, it is a poor use of the line officers’ and FPU’s
time to review cases that are overwhelmingly not fraudulent. In addition, several of the NIV
officers commented that they did not get useful information from the FPU.

Recommendation 16: Embassy Bogotá, in coordination with the Bureau of Consular Affairs,
should convene a fraud prevention planning conference to create a fraud prevention plan that
                                          23
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

meets the needs of the consular line officers and other constituents. The embassy should seek
Department of State approval to invite a fraud management expert from the Bureau of Consular
Affairs, Office of Fraud Prevention Programs, to participate in the conference. (Action: Embassy
Bogotá, in coordination with CA)

       One of the most important roles that the FPU can play is to provide line officers with
feedback via validation studies. These studies are required for all referral cases. In Bogotá, the
FPA staff had not completed any validation studies from May 2010 to February 2011.

       Informal Recommendation 13: Embassy Bogotá should increase the number and
       frequency of nonimmigrant visa validation studies.




                                          24
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Resource Management
                   Agency                          U.S.         FMA    LE         Total    Funding
                                                  Direct-        &    Staff       Staff    FY 2010
                                                   Hire         EFM
Department of State – Program                           99       11      22         132     $7,351,016
Department – ICASS                                      14       11     216         241    $14,374,400
Department – Diplomatic Security                         2                5           7     $2,642,266
Department – Bureau of Overseas Buildings                                                   $6,705,867
Operations
Department – Public Diplomacy                               6     1      25          32     $2,841,769
Department – Public Diplomacy                                                                  $75,980
Representation
Department – Consular Affairs                           34        9      48          91     $1,740,962
Department – Representation                                                                    $62,600
Department – Marine Security Guard Support              13                3          16       $203,502
Department – Narcotics                                   9       38      87         134   $243,895,000
Department – Bureau of Refugees                          1                1           2       $155,000
Department –Antiterrorism                                                                     $390,342
Broadcasting Board of Governors Affiliates
Subtotal Department of State                          178        70     407         655   $280,438,704

Department of Agriculture – Foreign                         2                 5       7      $818,793
Agriculture Service
DOA – Animal and Plant Health Inspection                    1            12          13     $1,477,328
Service
Department of Commerce – Foreign                            2     1      10          13      $802,996
Commercial Service
DHS – U.S. Secret Service                                   5                 3       8      $648,150
DHS – Immigration and Customs Enforcement                   6                 4      10     $1,872,208
DHS – Customs and Border Protection                         4                 1       5      $237,975
Container Security*
DHS – Customs and Border Protection                         1                         1
Container Security Special Investigations*
Defense Intelligence Agency                            17         1       8          26     $1,102,916
Department of Justice – Drug Enforcement              119         7      27         153    $20,360,000
Administration
Department of Justice – Criminal Division -                 3            13          16    $12,036,996
Office of Prosecutorial Assistance and Training
Department of Justice – Plan Colombia -                     2                 3       5     $7,900,000
Justice System Reform
Department of Justice – Criminal Division –                 2     1           3       6
Narcotics and Dangerous Drugs

                                           25
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                  Agency                      U.S.         FMA    LE         Total    Funding
                                             Direct-        &    Staff       Staff    FY 2010
                                              Hire         EFM
Department of Justice – Federal Bureau of              7                         7      $430,000
Investigation Legal Attaches
Department of Justice – International                  2                 5       7    $10,963,004
Investigative Training Assistance Program
Department of Justice – Alcohol, Tobacco,              3                 5       8      $492,500
Firearms and Explosives
Department of Treasury                                 2                 2       4       $227,000
Department of Treasury – Office of Foreign             2                 3       5       $517,058
Assets Control
Defense Agency Operations                                                              $2,245,790
Department of Army – Corp of Engineers                 2                 9      11       $600,000
Department of the Army – Force Protection              6     1           1       8        $62,000
Detachment
Army – Strategic Leadership Division                   3                         3
Defense Security Cooperation                           7                 3      10     $1,100,000
U.S. Southern Command – Asuncion
Army - SOUTHCOM - Operations and                   23        1      13          37     $3,600,000
Maintenance
Army - SOUTHCOM - Counterdrug Teams                26                    4      30    $41,200,000
Tacts
Army - SOUTHCOM - Traditional CINC                     1                         1       $25,000
Activities
Navy – Marines OLMSTEAD Scholar                     3                            3
Navy – Personnel Exchange Program                   1                            1
Peace Corps                                         3                2           5       $962,700
U.S. Agency for International Development          22        3      20          45     $3,800,000
USAID – Economic Support Funds                      4        4      39          47   $201,800,000
USAID – Office of Transition Initiatives                     2       1           3      $165,842
Subtotal Other Agencies                          281        21     196         498   $315,448,256

Total                                            459        91     603        1153   $595,886,960
Source: Embassy Bogotá

*U.S. Customs and Border Protection offices have a combined budget.




                                          26
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Management Issues
        This inspection of Embassy Bogotá revealed a number of management irregularities and
deficiencies. The same or similar issues have appeared in OIG inspection reports since at least
2000. Although the embassy and OIG have followed routine compliance procedures, the
problems still exist.

        The OIG team believes that, over the years, the embassy and WHA have not paid
sufficient attention to resolving the deficiencies that are described in this and past reports. Daily
operations are not being conducted as effectively as they should be, and routine internal control
procedures are not in place. The inability of the sections to perform basic functions has had a
number of consequences, including numerous complaints from customers. Staff turnover in key
sections and numerous vacancies are possibly a result of the high-pressure of working with
insufficient staff and resources in this large and complex mission.

        Embassy Bogotá must ensure that strategic planning and growth are effectively
coordinated with staffing and funding levels. The mission has a culture of allowing program
expansion, especially by other agencies, while underestimating the resource implications of the
mission’s growth. Since 2000, two OIG inspection reports and one compliance follow-up review
have stated that the ICASS platform is insufficient to provide adequate services to the
interagency community. Very little has been done to change that judgment. It is unlikely that the
problem would be resolved simply by adding more financial resources, even if those resources
were available.

        The embassy does not have a plan that comprehensively outlines what is needed to make
the management platform whole. It is time to confront these issues head on with innovative
solutions. The embassy must review all options at its disposal, including the following:

   •   prioritizing facility and staff requirements;
   •   improving management coordination among the large number of U.S. Government
       agencies and consolidating duplicative management platforms to gain efficiencies;
   •   strengthening the management platform that underpins operations; and
   •   addressing human infrastructure through programs designed to create a corps of well-
       trained and experienced officers, specialists, and LE staff.

       There is a serious need for a more comprehensive analysis of workload, management
vulnerabilities, and critical infrastructure needs. Mission Bogotá has too many pressing issues to
confront to be able to manage such a review itself.

Recommendation 17: Embassy Bogotá, in coordination with the Bureau of Western
Hemisphere Affairs and the Office of Management Policy, Rightsizing, and Innovation, should
prepare an analysis of anticipated changes in the U.S. Government presence in Colombia, and its
management support needs, that prioritizes options for short-term fixes and long-term solutions
and aligns human and financial resources. (Action: Embassy Bogotá, in coordination with WHA
and M/PRI)
                                           27
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        Embassy Bogotá must institute better and more effective approaches to overseeing basic
management operations. The front office has expressed support but needs to do more. Over the
past 10 years, the various management counselors have not been able to turn the management
section into an efficient customer-oriented support platform or to make it run efficiently. The
OIG team believes that the DCM, with the support of the Ambassador, should be more closely
involved and that he should be working directly with the management counselor to analyze what
is not working and why and to determine appropriate methods of strengthening the operation.

       Informal Recommendation 14: Embassy Bogotá should establish a problem-solving
       working group that meets monthly and is chaired by the deputy chief of mission and
       attended by the management counselor and key members of the mission team to address
       systemic problems with management services.

Human Resources

       The human resources unit is reasonably staffed and technically competent. In OIG
questionnaires and interviews, embassy personnel complained about customer service, hiring
decisions, and the lack of EFM employment work opportunities. Although there was merit to
some of the complaints, the staff members do a reasonable job of accommodating a diverse
number of agencies and LE staff members.

Savings Plan for Locally Employed Staff

        LE staff members are not satisfied with the current supplemental savings plan. Their wish
is to have a savings plan that allows them to place contributions in one of three funds: a credit
union fund operated by “Cooperativa Alianza,” a voluntary pension fund run by “Proteccion,”
and a trust fund administered by Helm Bank. At this time, the only option LE staff members
have is to invest their contributions in the embassy-approved credit union fund. If an employee
does not have an account at the credit union, he or she is not eligible to receive the embassy’s
matching contribution. In addition, LE staff would like the option to invest in a plan that might
yield higher returns.

        The embassy has worked diligently to develop a viable savings plan that meets LE staff
wishes, as well as American and Colombian regulatory requirements, and has formulated a three-
tiered approach. After 5 years of effort, the option to allow LE staff to invest in a voluntary
pension plan has been submitted and is pending Office of Overseas Employment approval. The
post has successfully addressed a number of legal issues associated with this option. Under this
approach, LE staff members will be able to elect to invest in the credit union fund or in the
voluntary pension fund. They will also have a third investment option, a trust fund, once the
embassy finalizes its agreement to allow Helm Bank to manage LE contributions. Helm Bank
already manages mission contributions deposited into a trust fund.

Recommendation 18: Embassy Bogotá, in coordination with the Bureau of Human Resources,
should seek approval for the Helm Bank Trust to administer and manage locally employed staff
contributions and finalize the written agreement to that effect. (Action: Embassy Bogotá, in
coordination with DGHR)
                                         28
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 19: The Bureau of Resource Management, in coordination with the Bureau of
Human Resources and the Bureau of Western Hemisphere Affairs, should provide Embassy
Bogotá with a timeline that includes the date when the proposed three-tiered savings plan will be
included in the local compensation plan and the date when locally employed staff can begin to
select their investment plan. (Action: RM, in coordination with DGHR and WHA)

Financial Management

        The understaffed financial management unit has experienced an increasing workload. As
a result, the unit’s productivity has declined, and its ICASS scores have declined from good to
below average. Over a 4-year period, the voucher workload increased by 53 percent or by 9,522
vouchers. The last time a position was added to the unit was 7 years ago.

       Staffing gaps have plagued the unit. (b) (6)

                                                       Some staff stayed as late as 11:00 p.m.
to keep up with demand. Altogether, the staff members worked many hours of overtime and, in
some instances, were not compensated for this work. In FY 2010, LE staff worked 1,789 hours
of overtime and 494 hours of compensatory time.

        The financial management unit has not always paid vendors on time, a situation that has
led to many complaints. As a result, some vendors do not want to do business with the embassy
or the EBO in Cartagena. The unit has a significant backlog of travel advances, vouchers, and
accounts receivable. Clearing these transactions will take additional hours of work. (Also see the
Management Controls section of this report.)

       To turn around performance, the financial management unit began to outsource its travel
voucher function to the Department’s Financial Services Centers’ post support units. This change
has greatly improved customer service. Travelers say that vouchers are processed and paid
within 48 hours. Not having to review travel vouchers will allow the unit’s 11 voucher examiners
to concentrate on other types of vouchers. The post support unit charges $12 per voucher and has
agreed to process 1,667 travel vouchers at a cost of $20,000.

       The cost for post support units to process the unit’s estimated 7,000 annual travel
vouchers would be approximately $84,000. The other option would be for the embassy to hire
four voucher examiners at a cost of $120,000. Clearly, outsourcing is the more cost-effective
method for handling travel vouchers.

        The financial management unit has one of the heaviest workloads worldwide. In FY
2010, the unit processed more than 27,000 vouchers, which equates to 2,566 vouchers annually
per examiner. With the addition of four staff, the unit’s ratio would fall to 1,882 vouchers per
examiner. With outsourcing, the ratio would fall to 2,000 per voucher examiner. Thus the unit
could elect either option, but the more cost effective appears to be outsourcing. Embassy
Bogotá’s voucher workload exceeds other large posts such as Beijing, Brasilia, London, Mexico
City, and Rome.

                                          29
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 20: Embassy Bogotá should continue to outsource its travel voucher payment
function to the Department’s Financial Services Centers’ post support units until it has
eliminated its backlog of unprocessed vouchers and has demonstrated that it can manage the
workload without such assistance. (Action: Embassy Bogotá)

International Cooperative Administrative Support Services

        The ICASS council is active and functions adequately, but several smaller agencies have
complained about the budget impact of decisions made by the larger agencies at post. This
difference of opinion has complicated the ICASS council’s deliberations over the past year.
Adding to the stress is the difficulty the Department has had in funding approved ICASS
positions. Five LE staff positions have been approved but remain unfilled.

        One of the leanest management operations worldwide, the ICASS platform at Embassy
Bogotá has 14 U.S. direct-hire positions to support 1,155 employees. In 2010, the section
supported 419 high-level visits, including the Secretaries of State and Defense. The management
section provides minimal support to some of the 2,403 contractors. ICASS also provides basic
support to 6,000–7,000 temporary duty personnel annually. The management section is
understaffed in some areas to handle this number of personnel, and funding is not available to
increase the number of ICASS positions.

Costs for Temporary Duty Personnel

        In 2010, a heavy concentration of temporary duty personnel and frequent high-level
visitors placed a strain on the management platform. Department policy prevents the mission
from charging the actual cost of providing services to these users. This policy states that
temporary duty personnel are not charged until they consume $500 in services. Thus the mission
was unable to recapture approximately $2 million expended in the support of temporary duty
personnel. Instead, in 2010, the mission charged and recaptured only $156,975. The majority of
temporary duty personnel who stayed less than 162 days paid nothing for services rendered.
There is no way to capture this level of support in the base ICASS budget. For Embassy Bogotá,
the Department’s temporary duty ICASS policy does not allow the mission to keep up with
demand, hire more staff, and provide quality administrative service.

Recommendation 21: The Bureau of Resource Management, in coordination with the Bureau of
Western Hemisphere Affairs, the Office of the Legal Adviser, and Embassy Bogotá, should
revise the International Cooperative Administrative Support Services policy on temporary duty
personnel to capture the actual cost of providing administrative support to temporary personnel.
(Action: RM, in coordination with WHA, L, and Embassy Bogotá)

        Some agencies at Embassy Bogotá use a series of temporary personnel to fill authorized
positions. There is no mechanism in place to track this practice. During the inspection, the OIG
inspectors learned that a Coast Guard position was filled for 11 months without the knowledge of
the management section. ICASS support costs were not charged. The officer did not request
country clearance through the normal channels. The embassy needs a more formalized check-in
and check-out procedure to capture all temporary duty personnel.
                                         30
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 22: Embassy Bogotá should establish and implement a written policy
requiring agencies to declare in their International Cooperative Administrative Support Services
agreements the number of authorized positions being filled with temporary duty personnel so
that Embassy Bogotá can bill the appropriate charges. (Action: Embassy Bogotá)

Recommendation 23: Embassy Bogotá should establish and implement a procedure that
requires all temporary duty personnel to check in and out upon their arrival and departure,
respectively. (Action: Embassy Bogotá)

Embassy Branch Office Cartagena

         Embassy Bogotá is not providing adequate support to EBO Cartagena. The principal
purpose of establishing an EBO in Cartagena was to provide diplomatic privileges and protection
to the 53 personnel, primarily DEA agents, who have been stationed there since 2001. However,
in 2008 when the operation in Cartagena was declared to be an EBO, the embassy and DEA did
not establish a clear understanding of which services were to be provided by the embassy and
which by DEA. The distance between Cartagena and Bogotá exacerbates the situation. In
addition, DEA had been operating independently for 7 years. The embassy has provided some
personnel to Cartagena to oversee ICASS support activities, but this support has not been steady
and has not resolved the issues raised by EBO Cartagena. Lack of available personnel in Bogotá,
backlogs in management service areas in Bogotá, and budget restrictions have severely limited
this already minimal embassy support.

       The four law enforcement groups in Cartagena have voiced multiple complaints about
residential maintenance. Some agents said that landlords are not responsive to their maintenance
requests. Upon review, many of the requests were for small repairs such as leaks, loose door
handles, and mold due to climate conditions. More immediate requests were to fix broken air
conditioning units and hot water heaters. Because some of the residential leases are paid in
advance, the mission has no leverage to compel landlords to make timely repairs. Other
complaints were about late vendor payments and inadequate medical care.

        The embassy has been trying to resolve the EBO support issues. The mission approved
the reallocation of three LE staff positions: a general services assistant, an electrician, and a
driver/administrative assistant. The embassy also proposed creating two EFM positions: a
general services officer and a community liaison officer. These positions have not been funded.

         Because this is a unique situation, the OIG team discussed various options to improve
administrative services. One approach would be to convert EBO housing from the short-term-
lease system to the living-quarters-allowance method. DEA leadership was receptive to this idea,
as it is practiced at other WHA posts such as Guatemala City, Panama City, and Quito. This
option would be cost effective and would relieve the mission of providing support in the housing
area.

       Another option would be to make DEA the alternate service provider. Because DEA has
its own management staff, this approach offers some possibilities. DEA has five positions
authorized and three vacant positions.
                                          31
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 24: Embassy Bogotá should conduct a pilot test for using the living-quarters-
allowance system to lease residential units in Cartagena, compare it to the short-term-lease
method, and select the more cost-effective and less problematic option. (Action: Embassy
Bogotá)

Recommendation 25: Embassy Bogotá should designate the Drug Enforcement Administration
as the alternate administrative services provider for the Embassy Branch Office in Cartagena on
a trial basis to determine whether it is the better option for providing these services. (Action:
Embassy Bogotá)

General Services Office

       The general services office, with its four officers and a professional associate, is stretched
extremely thin. Staffing gaps have exacerbated the unit’s management challenges. Although the
2010 ICASS survey scores were above average, customer service ratings in more recent OIG
surveys and interviews were lower.

Procurement and Contracting

         The professional associate assigned as the contracting and procurement supervisor is on
her first tour. She faces a number of significant challenges in managing an expansive portfolio of
high-value contracts. In 2010, the unit processed 5,570 actions totaling $22 million. During the
last 2 months of FY 2010, the unit processed 36 percent of these procurements and awarded 10
contracts amounting to $935,936.

        In the 7 months prior to the OIG inspection, the unit lost four of its nine LE staff
members, including the senior LE supervisor. One LE staff member retired, one left for an
outside job, and two took positions in NAS. Training and experience are critical factors in the
efficient operation of the unit. As a result of the rising demands, heavy workload, and budget
constraints, LE staff is hard pressed to provide the level of service required.

        Without the assistance from other agencies that have their own procurement sections, the
unit’s two contracting experts would be unable to handle the workload. The unit must rely on the
superior technical knowledge for specialized contracts found in NAS, USAID, the Military
Group, and throughout the Department. In 2010, this small unit processed 25 formal contracts
and 1,100 contract modifications.

        The unit is now down to one LE staff contracting officer and will be unable to meet the
surge in the summer of 2011 without recruitment and training of additional personnel. Agencies
routinely present incomplete documentation or last-minute requests for procurement or
contracting, which leads to confusion, adds to the workload, and prohibits advance planning in
areas such as year-end spending. (b) (5)


Recommendation 26: Embassy Bogotá should perform a job analysis for each of the vacant
positions in the procurement and contracting section, advertise and fill the positions, and train the
                                          32
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

incoming staff. (Action: Embassy Bogotá)

Recommendation 27: Embassy Bogotá should establish and implement a policy that requires
serviced agencies to prepare and submit acquisition plans that include year-end spending.
(Action: Embassy Bogotá)

        There is currently no tracking tool that integrates the contract and procurement process
with financial management for tracking payments and processing transactions, which constitutes
a vulnerability.

Recommendation 28: Embassy Bogotá should identify and implement a database to track
contracts from receipt of contract specifications through liquidation of payments. The database
should include automatic notifications when contracts are due for renewal. (Action: Embassy
Bogotá)

        Both the ARIBA off-the-shelf procurement tracking software and the Integrated Logistics
Management System used to procure goods and services unexpectedly deleted and dropped
procurement actions. It takes additional time to research and re-input these actions every time
there is a glitch, which has slowed the procurement process significantly. Some agencies were so
frustrated that they refused to use these systems. As result, the procurement clerks had to enter
the data manually, which increased their workload. The Federal Procurement Data System report
showed 100 problems encountered with attempted procurements, which all appear to be due to
technical glitches in the system.

Recommendation 29: The Bureau of Administration should review the performance of the
ARIBA software and resolve software technical problems and glitches experienced by users.
(Action: A)

Recommendation 30: Embassy Bogotá should establish and implement a policy that requires
serviced agencies to use the ARIBA and Integrated Logistics Management System for all
procurement requests. (Action: Embassy Bogotá)

Property Management

       The personal property management section handles an inventory valued at approximately
$9.4 million. Shortages are very low – around 0.29 percent. Management controls are in place,
and property management records are well maintained. The staff members try to keep excess
property to a minimum and conduct regular auctions, but the warehouse is still crowded.

       Informal Recommendation 15: Embassy Bogotá should determine the feasibility of just-
       in-time shipments of furniture with the Department’s Office of the Procurement
       Executive and the Regional Procurement Support Office in Fort Lauderdale, Florida.

       Embassy Bogotá agencies have duplicative property management staff and separate
warehouse facilities. NAS and USAID consolidated property management operations, saving
approximately $77,000 annually. According to embassy personnel, the Department was not
                                         33
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

included in this merger because NAS and USAID did not want to merge their warehouses under
Department management. The NAS-USAID warehouse facilities are contiguous to the embassy-
leased warehouse, thus the physical layout of the facilities lends itself to further consolidation.
Not consolidating all inventories requires more warehouse space and increased labor costs than
are necessary. In discussions with the OIG team, NAS and the management section were
receptive to the idea of NAS becoming the alternate service provider for property management.

Recommendation 31: Embassy Bogotá, in coordination with the Bureau of Western
Hemisphere Affairs and the Bureau of International Narcotics and Law Enforcement Affairs,
should consolidate duplicative property management staff and warehouses. (Action: Embassy
Bogotá, in coordination with WHA and INL)

        The establishment of mission-wide appliance and furniture pools would minimize the
need for warehouse space, achieve greater efficiency in managing inventories of nonexpendable
property, and offer several other advantages. Specifically, it would simplify inventory
recordkeeping and procurement actions and ensure uniform quality and quantity of household
furnishings. In addition, it would save time and money and prevent the unnecessary effort and
potential damage involved in moving furniture and appliances whenever occupancy of a
residence passes from one agency to another.

Recommendation 32: Embassy Bogotá should coordinate with its International Cooperative
Administrative Support Services council to develop and implement mission-wide appliance and
furniture pools. (Action: Embassy Bogotá)

Real Property in Cartagena

        In Cartagena, the short-term-leased facility known as the Chambacú Building and
occupied primarily by DEA is in poor condition. The facilities manager conducted an inspection
of the building and found a number of electrical, air conditioning, and maintenance deficiencies.
He believes that the building’s support systems will fail. The building does not meet Department
safety or building codes. There are 27 landlords that own the building as tenants in common, and
reaching agreement upon repairs is difficult. Chambacú is a multitenant building, with U.S.
agencies occupying the fifth floor.

        The lease for the space in the Chambacú Building expires in August 2011.
Representatives from the Bureau of Overseas Buildings Operations told the OIG team that they
plan to send staff to Cartagena to renegotiate the lease. DEA personnel told the OIG team that
there were no other suitable facilities in Cartagena and that they had no funds to use for
relocation. DEA expects the $400,000 lease cost to increase during the renegotiation. The
classified annex to this inspection report contains further information on the Chambacú Building.

Motor Pool

       The motor pool received high marks on OIG questionnaires. However, the average age of
vehicles in the fleet is 9 years, and many have exceeded the Department’s vehicle replacement
guidelines. Fuel consumption is also high. The fleet gets a combined average of 7 miles per
                                          34
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

gallon. Because of the lack of effective monitoring, the OIG team could not determine the reason
for the low mileage.

Recommendation 33: Embassy Bogotá should develop and implement a procedure to monitor
vehicle fuel consumption on a routine basis and to investigate any irregularities immediately.
(Action: Embassy Bogotá)

         LE staff and local vendors perform routine maintenance and repair. The embassy’s
garage is primitive, with minimal supplies and tools. Diagnostic equipment is insufficient for the
fleet size. Garage life and safety measures must be improved. The ventilation system is also
inadequate, and there are no emergency breathing apparatuses.

         Fixing garage life and safety deficiencies, providing training, and equipping the garage
facility to provide proper fleet maintenance would cost approximately $750,000. Given the age
of the vehicles and the long lead time to replace armored vehicles, the cost could be higher.
Outsourcing the vehicle maintenance function might be more cost effective. Armored vehicles
require regular maintenance to overcome the stress of the heavy armor on the vehicle’s drive
train, suspension, and braking systems. Certified mechanics may perform mechanical work or
preventive maintenance on armored vehicles but only while being observed by an embassy
employee (see 12 FAM 386).

Recommendation 34: Embassy Bogotá should perform a cost-benefit analysis of the merits of
outsourcing vehicle maintenance and determine whether it is more feasible and economical than
performing in-house maintenance. Any outsourcing of maintenance work for armored vehicles
must include the availability of motor pool personnel to accompany and observe mechanical
work performed by nonembassy employees. (Action: Embassy Bogotá)

Fire and Life Safety

        Several safety, health, and environmental management issues require attention. The
short-term-leased residences are not equipped with fire extinguishers that meet Department
standards. A number of short-term residences have no secondary egress. Depending on the
landscape, the Bogotá fire departments may not have the equipment necessary to reach
apartments above the tenth floor.

Recommendation 35: Embassy Bogotá should establish and implement a policy that all leased
residential units without a secondary egress be located on or below the tenth floor of buildings.
(Action: Embassy Bogotá)

         According to Embassy Bogotá’s Safety, Health, and Environmental Management report,
the fire extinguishers in residential units do not meet Department standards. This issue is still
unresolved.

       Informal Recommendation 16: Embassy Bogotá should work with the Bureau of
       Overseas Buildings Operations to install fire extinguishers that meet Department of State
       standards in all residential units.
                                          35
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       The paper shredder is located inside the warehouse on the second level, along with a
large amount of shredded material. There is also a large quantity of recyclable cardboard
material that is improperly stored under the wooden second floor of the warehouse.

Recommendation 36: Embassy Bogotá should move the shredding machine to a secure location
outside the warehouse to reduce the potential accidental fire hazard. (Action: Embassy Bogotá)

Recommendation 37: Embassy Bogotá should move the recycling materials from inside the
warehouse to a more suitable location. (Action: Embassy Bogotá)

Housing

        The general services office effectively administers a housing program that includes 331
apartments in Bogotá and 38 in Cartagena. The OIG team found a random sample of apartments
to be of exceptional quality. The majority of employees are pleased with their housing, although
there were some complaints about assignments. Some staff members with special needs were
overlooked either because they did not inform the embassy of their requirements or because
suitable apartments were not available.

Recommendation 38: Embassy Bogotá should revise its standard communication with newly
assigned personnel so that the basis for housing assignments is clear. The standard
communication should note that information on medical considerations should be provided by
incoming personnel so that the embassy can take this information into account when making
housing assignments. (Action: Embassy Bogotá)

        In FY 2010, the office handled 170 apartment turnovers with 5 LE maintenance staff
members. Because of the small staff size, the embassy is forced to rely heavily on landlord
willingness to carry out even minor maintenance requests. Although landlords do make some
repairs, the large number of work order requests overwhelms the staff. In 2010, the facilities
crew processed 2,650 official work orders and almost the same number of informal requests. In
most cases, the landlord or an embassy-selected contractor makes the repairs within 60 to 90
days. However, there are occasions in which some repairs are still pending after 6 months. The
OIG team counseled housing staff to take a more aggressive posture in dealings with recalcitrant
landlords.

Recommendation 39: Embassy Bogotá should establish and implement a policy to enforce the
lease provision that mandates the landlord to undertake needed repairs to leased residences
within 72 hours. If the landlord does not respond, the embassy should automatically make the
repairs and deduct the cost from the rental payments. (Action: Embassy Bogotá)

Recommendation 40: Embassy Bogotá should review the short-term residential maintenance
workload and request additional positions as warranted. (Action: Embassy Bogotá)

        The definition of what constitutes normal wear and tear versus damage to a residence is
not clear. The OIG team heard complaints from employees regarding their having to pay hefty
amounts for apartment damages. Factually, most employees were charged minimal amounts for
                                         36
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

damages. There were some that were charged $500 and a few several thousands of dollars. The
combination of rumors and ill-defined policy negatively affect morale. The embassy’s check-out
procedure includes a walkthrough with housing and facilities maintenance staff to review the
condition of the leased apartment. However, the procedures are ambiguous and require further
definition to resolve questions about damages.

Recommendation 41: Embassy Bogotá should create a document that explains in detail the
check-out procedure, the employee’s responsibility for damages, and the definition of normal
wear and tear, including examples of wear and tear and past damages assessed. The embassy
should require that all newly arrived employees sign this document during the check-in process
to confirm their understanding of the policy. (Action: Embassy Bogotá)

Regional Security Office Program Management

       The RSO has been asked to conduct a significant number of background investigations
over the past 2 years, and despite efforts to complete investigations on time, the section remains
overwhelmed, particularly in cases involving contract employee, Colombian National Police, and
LE staff investigations. The regional security officer directed his staff to focus on the timely
completion of investigations; however, these efforts have not reduced the backlog owing to the
constant influx of new cases. Furthermore, the investigators conducted 6,900 name checks in
2009; 5,100 in 2010; and, at the current rate, are likely to conduct more than 8,000 name checks
in 2011. Additional responsibilities include police liaison and travel in support of congressional
delegations and other high-profile visits.
       (b) (5)




Information Management and Information Security

       Embassy Bogotá operates one of the largest information management (IM) and
information systems security programs in the world. Inadequacies in staffing have plagued the
IM program for years, even predating the 2006 OIG inspection report. The IM program
continues to incur major deficiencies in key areas of operational necessity. Surprisingly,
Embassy Bogotá’s IM program has been able to overcome these shortcomings and achieve high
                                         37
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

scores in ICASS surveys and OIG questionnaires. Staff morale is high, and a teamwork structure
is evident throughout the program.

        The IM program provides off-site support to the EBO in Cartagena, the general services
office/NAS warehouse, the Guaymaral facility, and a small network at the consular agency in
Barranquilla. In addition to regular IM duties, the program supports frequent high-profile visits
to the region. IM staff has consistently met these requirements. Furthermore, the Bogotá IM
program also supports a regional BlackBerry program that provides services to missions in
Barbados, Peru, Panama, and Venezuela.

        The OIG team identified several areas that need immediate attention to ensure efficient
IM operations. These include management of the mission’s Dedicated Internet Networks (DIN),
check-in and check-out procedures, radio program support, and training. The mission has
addressed some of the concerns, and some remedial activities are in progress. Information
security issues are covered in the classified annex to this report.

Information Management Staffing

       Embassy Bogotá has long tried to acquire additional IM positions. The last two MSRPs
have identified the need for more American systems personnel. There are several IM areas of
responsibility that are not fully covered. It is imperative that the program be staffed according to
operational responsibility. The classified annex to this report discusses this issue in more detail.

Check-in Check-out Procedures

        The check-in and check-out procedures for temporary duty personnel at Embassy Bogotá
are flawed. Although check-in and check-out lists are in use, the IM items are not being
completed by employees. As a result, users arrive and depart without appropriate notification to
the Information Programs Center and the Information Systems Center, and thus neither network
is being administered according to Department regulations. This lack of network monitoring
creates vulnerabilities associated with the improper management of user accounts.

Recommendation 42: Embassy Bogotá should establish procedures requiring all temporary duty
and permanent personnel to complete all information management items on the embassy’s
check-in and check-out lists. (Action: Embassy Bogotá)

Dedicated Internet Network Management

         Embassy Bogotá has multiple DINs located throughout the compound. However, the
mission does not have records for each DIN. There are no standard operating procedures for
maintaining the networks or a clear justification for having established so many. A DIN
establishment has to show a clear need that cannot be met by the unclassified network. A
justification and all network information must be submitted to the Department’s Information
Technology Change Control Board for approval. If not appropriately managed and justified,
DINs divert resources from the management of the Department’s OpenNet. Furthermore, lack of
appropriate management and security of the networks can potentially expose government-owned
                                          38
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

computers to vulnerabilities. During the course of the inspection, the OIG team found a wireless
router operating in PAS. The information management officer was not notified of the
establishment of the wireless network, which further indicates a need to standardize the operation
and management of the DINs. Embassy Bogotá recognizes the deficiencies in its DIN
management and has started to inventory and consolidate the networks and to implement
controls to secure them as outlined in 5 FAM 872.

Recommendation 43: Embassy Bogotá should complete the inventory and consolidation of its
Dedicated Internet Networks and register them with the Bureau of Information Resource
Management. (Action: Embassy Bogotá)

Recommendation 44: Embassy Bogotá should establish and document standard operating
procedures for Dedicated Internet Network management. (Action: Embassy Bogotá)

Constituent Support

        Embassy Bogotá’s IM program does not include quarterly or semiannual support visits to
the mission’s off-site locations in Cartagena and Barranquilla. A site review of the EBO IM
resources revealed the need for operational attention. Quarterly preventive maintenance visits to
a mission’s constituent posts are standard throughout the Department. IM management has stated
that lack of funds has been a primary reason for not making more visits. Nevertheless, IM
management is responsible for the servicing and operation of all Department-owned equipment.
Without appropriate scheduling for the site visits, IM operations at the mission’s off-site
locations are susceptible to service interruptions and vulnerabilities.

       Informal Recommendation 17: Embassy Bogotá should establish a schedule for and
       fund quarterly operational visits by information management staff to off-site locations in
       Cartagena and Barranquilla.

Radio Program

        The radio program at Embassy Bogotá includes over 1,000 transceivers and continues to
grow. The program is managed by one radio technician who was initially hired to support a
network less than half its current size. A number of the technician’s current duties and
responsibilities are not identified in the individual’s position description and are therefore not
being accounted for by ICASS. For example, the inherited responsibilities for supporting the
multiple tenant-agency networks are beginning to rival the duties the technician was originally
hired to perform. The combined radio networks of all tenant agencies at the mission have
surpassed the network currently operated by the Department. Support and administration duties
for these networks are substantial and warrant an additional position. The OIG team learned that
an LE radio technician position was approved by the ICASS council but was never funded.
Embassy management agrees with the need for an additional radio technician to ensure
consistent maintenance of the radio inventory and equipment.

Recommendation 45: Embassy Bogotá should promptly fill the locally employed radio
technician position. (Action: Embassy Bogotá)
                                          39
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Training of Systems Staff

        The information systems staff has not been consistently granted approval for the technical
training necessary to ensure quality information technology support. The deployed systems at
this mission are too complex to be learned through trial and error; formal training is necessary. It
would be prudent to provide platform administrators the appropriate training through formalized
courses at the Foreign Service Institute. Without periodic technical training, IM staff members
will be unable to keep their knowledge and skills up to date.

Recommendation 46: Embassy Bogotá should establish a training regimen for information
systems staff members that includes coursework at the Foreign Service Institute that is specific to
their job function and designated duties. (Action: Embassy Bogotá)

Inadequacy in Position Grading

         The OIG team found that a number of the positions in the information resource
management section were graded at a level below that of other missions of comparable size. For
example, the position description of the radio technician was last reviewed in 2003 and does not
reflect the very significant increase in serviced equipment. Furthermore, a number of the systems
staff position descriptions do not accurately reflect the duties and responsibilities currently
performed by the employees.

       Informal Recommendation 18: Embassy Bogotá should update position descriptions for
       personnel in the information management section and reclassify the positions as
       appropriate.

Telephone Operators

        Following the 2008 OIG compliance follow-up review, Embassy Bogotá initiated 24-
hour telephone coverage in the chancery. During this inspection, the OIG team found that the
night shift, which runs from 10 p.m. to 6 a.m., receives an average of one call per shift. The lack
of calls during this time period calls into question the need for a night shift.

       Informal Recommendation 19: Embassy Bogotá should review the mission’s
       switchboard coverage and evaluate the need to maintain 24-hour coverage.

System Backup Media

       During the inspection, the OIG team found multiple backup tapes containing sensitive
information that had not been disposed of according to 12 FAM 629.6 guidance on media
destruction.

       Informal Recommendation 20: Embassy Bogotá should properly dispose of all old
       backup tapes according to Department of State procedures.


                                          40
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Telephone Frame and Electrical Racks

       The telephone frame and electrical racks in the controlled access areas are not properly
maintained. These rooms have surplus wires and unlabeled cabling, conditions that can result in
delays during repairs if the staff members are unable to locate the needed cables quickly.
Embassy Bogotá staff members told the OIG team that they lacked the time and funding to
address the issue. However, the time required for operational maintenance in the telephone frame
and server rooms will only increase until proper action is taken.

       Informal Recommendation 21: Embassy Bogotá should properly organize and label all
       telephone frame and electrical racks in the controlled access areas.

Pouch Regulations

        Embassy Bogotá currently does not have guidance specifying authorized use of the
mission’s unclassified pouch. Department guidance 14 FAM 724.1-1 and 14 FAM 724.1-2
stipulate who is authorized to use the unclassified pouch, and 14 FAM 728.3 requires that post
management develop and implement post-specific procedures to control pouch use. Without
proper post management oversight, pouch services are vulnerable to the possibility of
inappropriate use as well as Department-incurred expenses.

       Informal Recommendation 22: Embassy Bogotá should establish and disseminate
       written policies regarding authorized use of the unclassified pouch as stipulated in
       Department of State guidance.

Memorandum of Understanding with the Narcotics Affairs Section

        A memorandum of understanding between NAS and the IM office was established in
March 2007. The memorandum of understanding outlines the relationship between NAS and the
IM office with respect to the information technology networks and resources. Because of the
consolidation that occurred in December 2010, NAS no longer operates the NAS network, and
the duties for supporting the NAS have been inherited entirely by the Information Systems
Center staff.

       Informal Recommendation 23: Embassy Bogotá should execute a new memorandum of
       understanding between the information management office and the narcotics affairs
       section to reflect the current business arrangement.

State Messaging and Archive Retrieval Toolset

         To its credit, Embassy Bogotá is one of the first missions in WHA to implement
SMART, but it is not being fully utilized to create and archive record emails. The OIG team
found that users are not familiar with the system. The OIG team discussed the issue with IM
management, who reported that they had not been notified of this problem. IM management has
stated its commitment to implementing training either through internal classroom training or via
SMART Webinars.
                                         41
                             SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 24: Embassy Bogotá should develop and implement a
training regimen for mission personnel who are required to create and administer record
emails via the State Messaging and Archive Retrieval Toolset.




                                 42
                     SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
Morale

        Although it is difficult to build a sense of camaraderie in a huge mission, morale among
American employees at Embassy Bogotá is generally above average. Individuals reported that
they liked their coworkers and felt rewarded and respected for their endeavors. The smaller
number of individuals who reported lower morale noted that they felt isolated or stressed or had
specific issues with housing, schooling, or embassy services such as vouchering or delivery of
household effects.

        OIG questionnaires show that LE staff morale is very good. LE staff gave high marks to
senior manager leadership and management’s attention to morale. Communication is good. The
management counselor meets with the LE staff association monthly. Unusually, LE staff formed
a grievance committee modeled after the Foreign Service system. An LE staff member sits on the
awards committee for U.S. direct-hire and LE staff.

Community Liaison Office

         The community liaison office includes one full-time community liaison office
coordinator and two part-time assistants. One of the chief concerns of the community liaison
office is the training of household staff in maintaining the privacy and security of the mission’s
American employees and their families at home. Embassy residences frequently receive calls
from unknown persons asking for information about the occupants. Another type of telephone
call is the “Llamada Millionaria,” during which an unknown caller tells the person who answers
that another household member has been kidnapped and is being held for ransom. To date, these
calls have all been false, but on occasion household members or staff members have collected
money and valuables, paid the ransom, and then discovered that the call was false. The
community liaison office and RSO have conducted training sessions in Bogotá and Cartagena to
inform household staff of the nature of such calls and to help them learn how to handle them.

        Although the community liaison office coordinator meets weekly with the management
counselor, she has not been meeting regularly with the DCM. One of the duties of the
community liaison office coordinator, as directed by the Family Liaison Office, is to attend
regularly scheduled briefings with the DCM.

       Informal Recommendation 25: Embassy Bogotá should implement a schedule for
       regular meetings between the community liaison office coordinator and the deputy chief
       of mission.

Health Unit

       Embassy Bogotá’s health unit scored high marks on OIG questionnaires. Staffed by a
regional medical officer, a regional medical psychiatrist, a Foreign Service health practitioner,


                                          43
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

and various nurses, technicians, assistants, and clerical personnel, the unit provides quality
service to the embassy community.

        The number of patient visits to the health unit in 2010 was 40 percent more than in 2009.
There is no obvious reason for this dramatic increase, although the supposition is that individuals
may have been using outside medical providers and are now using the health unit. The increase
in patient visits means that the budget for health unit supplies is lagging behind the demand.
With the current concern over potential budget cuts, the health unit is hoarding supplies.

        The space occupied by the health unit is cramped and crowded. Space adjoining the
health unit originally intended for health unit expansion was instead given to the IM section, also
located in quarters too small for its needs. There are no plans to expand the health unit, and
additional space may not become available until a planned embassy construction project
scheduled for 2023.

School Issues
        (b)(5)(b)(6)




       (b)(5)(b)(6)
                                                        The OIG team spoke with embassy parents
whose children had encountered bullying at the school. Most of these parents eventually
removed their children from the school. Although it is difficult to determine how widespread and
frequent the bullying is, there is no doubt that it is occurring with some regularity. The parents
interviewed by the OIG team described incidents that included kicking, punching, slamming
heads into lockers, and name calling. The Department has a zero tolerance policy on bullying in
                                                                                         (b)(5)(b)(6)
schools attended by mission family members. Some parents also voiced concern that                     was
deficient academically, describing how parents who had moved their children to other schools in
Bogotá or the United States had needed to hire tutors to bring their children up to the appropriate
academic grade. One child was placed back one grade upon transfer to another school.

Recommendation 47: Embassy Bogotá, in coordination with the Bureau of Administration,
should implement a plan by which the Ambassador and deputy chief of mission work with
embassy parents and the director and staff of the (b)(5)(b)(6)         to institute an effective
antibullying program. (Action: Embassy Bogotá, in coordination with A)
        (b)(5)(b)(6)




       (b)(5)(b)(6)         special needs programs, and a number of embassy families enroll
special needs children in the schools. Embassy parents spoke highly of the two programs.

                                           44
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       (b)(5)(b)(6)




Employee Association and Cafeteria

       Post Employee Services provides a commissary for the embassy community, along with a
small shop and a beauty salon. The operation is financially strong and is running smoothly. The
2010 net income was $48,800, with an average daily gross intake of approximately $2,500. All
Post Employee Services documents are up-to-date, and the internal control procedures are
adequate and effective.

         At any point in time, Embassy Bogotá has a large number of temporary duty personnel. It
is difficult for the commissary staff to determine which temporary duty staff members are
eligible for which types of membership in Post Employee Services. Because the human resources
office is not keeping up-to-date, accurate records of temporary duty personnel, Post Employee
Services must seek information from the RSO, as that office issues badges to most temporary
duty staff and, consequently, has somewhat more complete records. Other issues associated with
temporary duty staff are described elsewhere in this report.

      The embassy cafeteria is managed by an outside contractor. The OIG team received a
number of complaints about the cafeteria, and the cafeteria committee at Embassy Bogotá is
working with the cafeteria staff to provide items requested by embassy community members.
The contract for the cafeteria is monitored, and reporting is up-to-date.

Affirmative Action and Equal Employment Opportunity

       Both the Ambassador and DCM fully support the objectives of the Equal Employment
Opportunity (EEO) program. Embassy Bogotá has two EEO coordinators. One received training
in December 2010, and the other will receive training in March 2011. The Federal Women’s
Program coordinator accepted her duties in late 2010. At the time of the inspection in February
2011, she had not received any guidance from the Department. The OIG inspectors provided her
with material on the program and suggested ways that she could publicize and bring attention to
it.

        At the time of the inspection, the embassy had placed some EEO announcements in
public display cases in the chancery, but some of these announcements were out of date, and
most were not in both Spanish and English. The public discussion and dissemination of notices is
an integral part of this and other programs.

       Informal Recommendation 26: Embassy Bogotá should implement a procedure so that
       Equal Employment Opportunity and Federal Women’s Program information is provided
       in both English and Spanish, is disseminated mission-wide, and is reviewed for accuracy
       at least twice a year and updated as needed.


                                         45
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
        Despite the Chief of Mission’s statement signed on July 2010 that adequate controls were
in place, the OIG team identified serious management control weaknesses in contracting and
procurement, financial management, and motor pool services. Some of these issues have been
addressed earlier in this report. Others are detailed here.

Recommendation 48: Embassy Bogotá should include in the 2011 Chief of Mission statement
regarding management controls all the weaknesses presented in this report, along with the steps
the embassy has taken to resolve those vulnerabilities. (Action: Embassy Bogotá)

Vouchering

        The financial unit has no established method to track vouchers. Upon receipt, vouchers
are given to the voucher examiner assigned to the account. This lack of detail has made it
difficult for the staff to know when vouchers were received, precertified, certified, and paid. The
OIG team heard many complaints about late vendor payments and the backlog of vouchers. In a
few instances, utility companies threatened to cut off services if the bills were not paid
immediately. The unit’s inability to pay bills within 30 days to meet the Prompt Payment Act or
vendor due dates has harmed the embassy’s reputation. The unit has a backlog of 241 vouchers
and 790 travel vouchers.

        A voucher tracking system is crucial to the financial unit’s operations. During the
inspection, NAS demonstrated the system they use to track vouchers, which enables them to
measure the performance of each voucher examiner and to keep track of when vouchers are
received, assigned, certified, and paid. Other tracking systems are also available.

         The newly arrived supervisory financial management officer has commendably taken the
initiative to improve performance and provide training for new staff. She inherited a significant
backlog of unprocessed vouchers. The unit has outsourced some of its workload. In addition, she
raised the issue of understaffing to the front office and ICASS council.

Recommendation 49: Embassy Bogotá should establish and implement a system to track
vouchers. (Action: Embassy Bogotá)

Recommendation 50: Embassy Bogotá should research, resolve, and process all vouchers
outstanding more than 30 days. (Action: Embassy Bogotá)

Outstanding Travel Advances and Vouchers

        Embassy Bogotá is not following Department guidance in 4 FAH-3 H-465 for processing
travel vouchers and travel advances. Nor is it meeting the uniform ICASS standards that require
travel vouchers to be processed within 11 days after the traveler has filed his or her voucher. The
open advance report shows a backlog of 790 advances totaling $801,000. The age of the open


                                          46
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

travel advances ranges from 30 days back to the year 2002, with the majority between 6 months
and 1 year old.

         In addition, some travelers have been issued new travel advances before settling their
prior outstanding ones. To clear open travel advances in a timely manner, travelers are required
to submit their travel vouchers within 5 days of completing authorized travel. Regulations
stipulate that prior travel advances to a traveler must be repaid before the traveler departs on
transfer, separation, home leave, or further temporary duty travel. Because a travel advance is a
loan, if it is not promptly vouchered or refunded, it represents a debt to the U.S. Government.
Outstanding travel advances greater than 30 calendar days are subject to the Debt Collection Act,
which provides for interest, administrative charges, and penalties.

        Embassy Bogotá has outsourced its travel voucher process function to the Department’s
Financial Service Centers. However, a great deal of work will be needed to clear the large
backlog of travel advances. In some instances, it will be time consuming and difficult to clear old
transactions.

Recommendation 51: Embassy Bogotá should establish and implement procedures that require
travelers to submit their travel vouchers within the time frames established in the Financial
Management Procedures Handbook. (Action: Embassy Bogotá)

Recommendation 52: Embassy Bogotá should establish and implement a plan to research and
resolve all outstanding travel advances that have been pending for more than 30 days. (Action:
Embassy Bogotá)

Accounts Receivable

        The financial unit’s accounts receivable summary reports show that $370,618 has not
been collected. The reported receivables are more than 90 days old, and a significant number
date back to the time period between 2003 and 2008. The majority, $369,278 of the receivables,
is for uncollected personal phone calls. Minimal amounts were for repairs and transportation. It
is unclear why the receivables were uncollected. The unit is not following the guidance found in
4 FAM 232 that relates to management of accounts receivable.

Recommendation 53: Embassy Bogotá should research and resolve all outstanding accounts
receivable that have been pending more than 30 days. (Action: Embassy Bogotá)

Cashiering

      A commercial bank provides accommodation exchange services to the mission. The
embassy also has automated teller machines.

        In FY 2011, the cash monitor based at the Charleston Financial Service Center conducted
a detailed review of cash operations. The report stated that the cashier and alternate cashier were
doing a fine job. The cashiers have a firm understanding of Department regulations. The
inspectors verified that deficiencies cited in the cash monitor’s report had been addressed.
                                          47
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Unliquidated Obligations for the Narcotics Affairs Section

       Coordination and communication between INL and NAS needs improvement. The OIG
team found that INL had not closed all Bogotá-based contracts and that funds for expired
contracts had not been deobligated. The appropriation for these obligations expires after 5 years,
rendering them invalid. There are obligations dating back to 2001.

Recommendation 54: The Bureau of International Narcotics and Law Enforcement Affairs
should instruct Embassy Bogotá’s narcotics affairs section to deobligate the funds for expired
appropriations. (Action: INL)




                                          48
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Bogotá should conduct a review of its foreign assistance
program, to include all sections and agencies, to develop a comprehensive plan for meeting the
challenges of a changing policy environment in the years ahead. The strategy should include a
description of the resources needed to implement the plan and should be submitted to the
Department of State for approval. (Action: Embassy Bogotá)

Recommendation 2: Embassy Bogotá should create and implement a central contact database
as the exclusive source of guest lists for medium and large events. (Action: Embassy Bogotá)

Recommendation 3: Embassy Bogotá should establish a written post policy governing the use
of cables, record emails, and working emails and develop a training regimen for mission
personnel who create and administer such cables and emails via the State Messaging and Archive
Retrieval Toolset. (Action: Embassy Bogotá)

Recommendation 4: Embassy Bogotá, in coordination with the Bureaus of Western
Hemisphere Affairs and Human Resources, should revise the position description of the political
counselor to reflect changed and more complex duties and submit it to the Bureau of Human
Resources for reclassification review. (Action: Embassy Bogotá, in coordination with WHA and
DGHR)

Recommendation 5: Embassy Bogotá, in coordination with the Bureaus of Western
Hemisphere Affairs and Human Resources, should reprogram one of the FS-02 deputy political
counselor positions (position number 10-268001) as a new FS-02 environment, science,
technology, and health position in the economic section. (Embassy Bogotá, in coordination with
WHA and DGHR)

Recommendation 6: Embassy Bogotá, in coordination with the Bureaus of Western
Hemisphere Affairs and Human Resources, should revise the position description of the deputy
political counselor (position number 10-157001) to reflect changed and more complex duties and
submit it to the Bureau of Human Resources for reclassification review. (Action: Embassy
Bogotá, in coordination with WHA and DGHR)

Recommendation 7: Embassy Bogotá, in coordination with the Bureau of Population,
Refugees, and Migration, should review the effectiveness of emergency internally displaced
person programs in Colombia to save resources and/or retarget assistance. (Action: Embassy
Bogotá, in coordination with PRM)

Recommendation 8: Embassy Bogotá, in coordination with the Bureaus of Western
Hemisphere Affairs and Human Resources, should revise the position description of the
economic counselor position to reflect changed and more complex duties and submit it to the
Bureau of Human Resources for reclassification review. (Action: Embassy Bogotá, in
coordination with WHA and DGHR)



                                         49
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Recommendation 9: The Bureau of Educational and Cultural Exchange should revise the
position description for the Lima-based regional educational advising coordinator to require two
visits to Colombia per year, including visits to, and detailed reviews of, the education advising
activities of binational centers outside Bogotá that receive U.S. Government assistance. (Action:
ECA)

Recommendation 10: Embassy Bogotá should establish and implement procedures so that all
grant recipients submit a final report of their performance under the grant within 90 calendar
days after the project period end date. (Action: Embassy Bogotá)

Recommendation 11: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Public Diplomacy and Public Affairs, should streamline the reporting requirements
placed on Embassy Bogotá’s public affairs section by not requesting information already
contained in the embassy’s mission activity tracking system. (Action: WHA, in coordination
with R)

Recommendation 12: Embassy Bogotá should request from the Department of State by record
communication a clarification of whether its dissemination of threat-related information is
consistent with the Department of State’s “no double standard” policy and alter any procedures
that do not comply with this policy. (Action: Embassy Bogotá)

Recommendation 13: Embassy Bogotá should increase supervision of the consular agency in
Barranquilla by establishing a policy of visiting the agency at least three times a year for at least
2 days each visit to confirm that the agency is following cash accountability procedures and has
the resources it needs to operate efficiently. (Action: Embassy Bogotá)

Recommendation 14: Embassy Bogotá should establish and implement nonimmigrant visa
referral procedures that comply with Department of State guidance regarding Class A and B visa
referrals. (Action: Embassy Bogotá)

Recommendation 15: Embassy Bogotá should draft and disseminate a notice from the
Ambassador to all potential referring officers in the mission that explains the changes to the visa
referral program. (Action: Embassy Bogotá)

Recommendation 16: Embassy Bogotá, in coordination with the Bureau of Consular Affairs,
should convene a fraud prevention planning conference to create a fraud prevention plan that
meets the needs of the consular line officers and other constituents. The embassy should seek
Department of State approval to invite a fraud management expert from the Bureau of Consular
Affairs, Office of Fraud Prevention Programs, to participate in the conference. (Action: Embassy
Bogotá, in coordination with CA)

Recommendation 17: Embassy Bogotá, in coordination with the Bureau of Western
Hemisphere Affairs and the Office of Management Policy, Rightsizing, and Innovation, should
prepare an analysis of anticipated changes in the U.S. Government presence in Colombia, and its
management support needs, that prioritizes options for short-term fixes and long-term solutions
and aligns human and financial resources. (Action: Embassy Bogotá, in coordination with WHA
and M/PRI)
                                           50
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 18: Embassy Bogotá, in coordination with the Bureau of Human Resources,
should seek approval for the Helm Bank Trust to administer and manage locally employed staff
contributions and finalize the written agreement to that effect. (Action: Embassy Bogotá, in
coordination with DGHR)

Recommendation 19: The Bureau of Resource Management, in coordination with the Bureau
of Human Resources and the Bureau of Western Hemisphere Affairs, should provide Embassy
Bogotá with a timeline that includes the date when the proposed three-tiered savings plan will be
included in the local compensation plan and the date when locally employed staff can begin to
select their investment plan. (Action: RM, in coordination with DGHR and WHA)

Recommendation 20: Embassy Bogotá should continue to outsource its travel voucher
payment function to the Department’s Financial Services Centers’ post support units until it has
eliminated its backlog of unprocessed vouchers and has demonstrated that it can manage the
workload without such assistance. (Action: Embassy Bogotá)

Recommendation 21: The Bureau of Resource Management, in coordination with the Bureau
of Western Hemisphere Affairs, the Office of the Legal Adviser, and Embassy Bogotá, should
revise the International Cooperative Administrative Support Services policy on temporary duty
personnel to capture the actual cost of providing administrative support to temporary personnel.
(Action: RM, in coordination with WHA, L, and Embassy Bogotá)

Recommendation 22: Embassy Bogotá should establish and implement a written policy
requiring agencies to declare in their International Cooperative Administrative Support Services
agreements the number of authorized positions being filled with temporary duty personnel so
that Embassy Bogotá can bill the appropriate charges. (Action: Embassy Bogotá)

Recommendation 23: Embassy Bogotá should establish and implement a procedure that
requires all temporary duty personnel to check in and out upon their arrival and departure,
respectively. (Action: Embassy Bogotá)

Recommendation 24: Embassy Bogotá should conduct a pilot test for using the living-
quarters-allowance system to lease residential units in Cartagena, compare it to the short-term-
lease method, and select the more cost-effective and less problematic option. (Action: Embassy
Bogotá)

Recommendation 25: Embassy Bogotá should designate the Drug Enforcement
Administration as the alternate administrative services provider for the Embassy Branch Office
in Cartagena on a trial basis to determine whether it is the better option for providing these
services. (Action: Embassy Bogotá)

Recommendation 26: Embassy Bogotá should perform a job analysis for each of the vacant
positions in the procurement and contracting section, advertise and fill the positions, and train the
incoming staff. (Action: Embassy Bogotá)




                                          51
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 27: Embassy Bogotá should establish and implement a policy that requires
serviced agencies to prepare and submit acquisition plans that include year-end spending.
(Action: Embassy Bogotá)

Recommendation 28: Embassy Bogotá should identify and implement a database to track
contracts from receipt of contract specifications through liquidation of payments. The database
should include automatic notifications when contracts are due for renewal. (Action: Embassy
Bogotá)

Recommendation 29: The Bureau of Administration should review the performance of the
ARIBA software and resolve software technical problems and glitches experienced by users.
(Action: A)

Recommendation 30: Embassy Bogotá should establish and implement a policy that requires
serviced agencies to use the ARIBA and Integrated Logistics Management System for all
procurement requests. (Action: Embassy Bogotá)

Recommendation 31: Embassy Bogotá, in coordination with the Bureau of Western
Hemisphere Affairs and the Bureau of International Narcotics and Law Enforcement Affairs,
should consolidate duplicative property management staff and warehouses. (Action: Embassy
Bogotá, in coordination with WHA and INL)

Recommendation 32: Embassy Bogotá should coordinate with its International Cooperative
Administrative Support Services council to develop and implement mission-wide appliance and
furniture pools. (Action: Embassy Bogotá)

Recommendation 33: Embassy Bogotá should develop and implement a procedure to monitor
vehicle fuel consumption on a routine basis and to investigate any irregularities immediately.
(Action: Embassy Bogotá)

Recommendation 34: Embassy Bogotá should perform a cost-benefit analysis of the merits of
outsourcing vehicle maintenance and determine whether it is more feasible and economical than
performing in-house maintenance. Any outsourcing of maintenance work for armored vehicles
must include the availability of motor pool personnel to accompany and observe mechanical
work performed by nonembassy employees. (Action: Embassy Bogotá)

Recommendation 35: Embassy Bogotá should establish and implement a policy that all leased
residential units without a secondary egress be located on or below the tenth floor of buildings.
(Action: Embassy Bogotá)

Recommendation 36: Embassy Bogotá should move the shredding machine to a secure
location outside the warehouse to reduce the potential accidental fire hazard. (Action: Embassy
Bogotá)

Recommendation 37: Embassy Bogotá should move the recycling materials from inside the
warehouse to a more suitable location. (Action: Embassy Bogotá)


                                         52
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 38: Embassy Bogotá should revise its standard communication with newly
assigned personnel so that the basis for housing assignments is clear. The standard
communication should note that information on medical considerations should be provided by
incoming personnel so that the embassy can take this information into account when making
housing assignments. (Action: Embassy Bogotá)

Recommendation 39: Embassy Bogotá should establish and implement a policy to enforce the
lease provision that mandates the landlord to undertake needed repairs to leased residences
within 72 hours. If the landlord does not respond, the embassy should automatically make the
repairs and deduct the cost from the rental payments. (Action: Embassy Bogotá)

Recommendation 40: Embassy Bogotá should review the short-term residential maintenance
workload and request additional positions as warranted. (Action: Embassy Bogotá)

Recommendation 41: Embassy Bogotá should create a document that explains in detail the
check-out procedure, the employee’s responsibility for damages, and the definition of normal
wear and tear, including examples of wear and tear and past damages assessed. The embassy
should require that all newly arrived employees sign this document during the check-in process
to confirm their understanding of the policy. (Action: Embassy Bogotá)

Recommendation 42: Embassy Bogotá should establish procedures requiring all temporary
duty and permanent personnel to complete all information management items on the embassy’s
check-in and check-out lists. (Action: Embassy Bogotá)

Recommendation 43: Embassy Bogotá should complete the inventory and consolidation of its
Dedicated Internet Networks and register them with the Bureau of Information Resource
Management. (Action: Embassy Bogotá)

Recommendation 44: Embassy Bogotá should establish and document standard operating
procedures for Dedicated Internet Network management. (Action: Embassy Bogotá)

Recommendation 45: Embassy Bogotá should promptly fill the locally employed radio
technician position. (Action: Embassy Bogotá)

Recommendation 46: Embassy Bogotá should establish a training regimen for information
systems staff members that includes coursework at the Foreign Service Institute that is specific to
their job function and designated duties. (Action: Embassy Bogotá)

Recommendation 47: Embassy Bogotá, in coordination with the Bureau of Administration,
should implement a plan by which the Ambassador and deputy chief of mission work with
embassy parents and the director and staff of the (b)(5)(b)(6)         to institute an effective
antibullying program. (Action: Embassy Bogotá, in coordination with A)

Recommendation 48: Embassy Bogotá should include in the 2011 Chief of Mission statement
regarding management controls all the weaknesses presented in this report, along with the steps
the embassy has taken to resolve those vulnerabilities. (Action: Embassy Bogotá)


                                          53
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 49: Embassy Bogotá should establish and implement a system to track
vouchers. (Action: Embassy Bogotá)

Recommendation 50: Embassy Bogotá should research, resolve, and process all vouchers
outstanding more than 30 days. (Action: Embassy Bogotá)

Recommendation 51: Embassy Bogotá should establish and implement procedures that
require travelers to submit their travel vouchers within the time frames established in the
Financial Management Procedures Handbook. (Action: Embassy Bogotá)

Recommendation 52: Embassy Bogotá should establish and implement a plan to research and
resolve all outstanding travel advances that have been pending for more than 30 days. (Action:
Embassy Bogotá)

Recommendation 53: Embassy Bogotá should research and resolve all outstanding accounts
receivable that have been pending more than 30 days. (Action: Embassy Bogotá)

Recommendation 54: The Bureau of International Narcotics and Law Enforcement Affairs
should instruct Embassy Bogotá’s narcotics affairs section to deobligate the funds for expired
appropriations. (Action: INL)




                                         54
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Bogotá should explore options for improving the
space now allocated to the economic unit to enhance the office environment and expand the
amount of space available to the unit.

Informal Recommendation 2: Embassy Bogotá should initiate an interagency environment,
science, technology, and health working group to coordinate mission initiatives in these areas.

Informal Recommendation 3: Embassy Bogotá should keep minutes of the law enforcement
working group meetings to maintain a record of issues discussed and decisions made during the
proceedings.

Informal Recommendation 4: (b) (5)



Informal Recommendation 5: Embassy Bogotá should cover with stones or pavers the bare
ground on which visa applicants stand while waiting in line.

Informal Recommendation 6: Embassy Bogotá should find reasonable seating accommodation
for locally employed staff working in the consular annex before beginning renovations to the
building.

Informal Recommendation 7: Embassy Bogotá should revise its entry-level-officer rotation
program in the consular section to give officers 6-month portfolios, except when circumstances
dictate shorter assignments.

Informal Recommendation 8: Embassy Bogotá should create a working group to find ways to
take advantage of public diplomacy opportunities afforded by the 300,000 Colombians who visit
the consular section annually.

Informal Recommendation 9: Embassy Bogotá should revise its procedures for processing
consular report of birth abroad cases to reduce the amount of time that applicants must wait for
service in the American citizens services section.

Informal Recommendation 10: Embassy Bogotá should require its nonimmigrant visa
managers to establish a regular schedule for discussions on adjudication criteria and interviewing
techniques to standardize the process and make refusal rates among officers more uniform.


                                         55
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 11: Embassy Bogotá should establish and implement a policy
requiring the submission of new applications and fees for all cases of reconsidered nonimmigrant
visa refusals per Department of State guidance.

Informal Recommendation 12: Embassy Bogotá should revise its nonimmigrant visa priority
processing procedures so that priority applicants are seen and interviewed in a timely manner.

Informal Recommendation 13: Embassy Bogotá should increase the number and frequency of
nonimmigrant visa validation studies.

Informal Recommendation 14: Embassy Bogotá should establish a problem-solving working
group that meets monthly and is chaired by the deputy chief of mission and attended by the
management counselor and key members of the mission team to address systemic problems with
management services.

Informal Recommendation 15: Embassy Bogotá should determine the feasibility of just-in-
time shipments of furniture with the Department’s Office of the Procurement Executive and the
Regional Procurement Support Office in Fort Lauderdale, Florida.

Informal Recommendation 16: Embassy Bogotá should work with the Bureau of Overseas
Buildings Operations to install fire extinguishers that meet Department of State standards in all
residential units.

Informal Recommendation 17: Embassy Bogotá should establish a schedule for and fund
quarterly operational visits by information management staff to off-site locations in Cartagena
and Barranquilla.

Informal Recommendation 18: Embassy Bogotá should update position descriptions for
personnel in the information management section and reclassify the positions as appropriate.

Informal Recommendation 19: Embassy Bogotá should review the mission’s switchboard
coverage and evaluate the need to maintain 24-hour coverage.

Informal Recommendation 20: Embassy Bogotá should properly dispose of all old backup
tapes according to Department of State procedures.

Informal Recommendation 21: Embassy Bogotá should properly organize and label all
telephone frame and electrical racks in the controlled access areas.

Informal Recommendation 22: Embassy Bogotá should establish and disseminate written
policies regarding authorized use of the unclassified pouch as stipulated in Department of State
guidance.

Informal Recommendation 23: Embassy Bogotá should execute a new memorandum of
understanding between the information management office and the narcotics affairs section to
reflect the current business arrangement.


                                          56
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 24: Embassy Bogotá should develop and implement a training
regimen for mission personnel who are required to create and administer record emails via the
State Messaging and Archive Retrieval Toolset.

Informal Recommendation 25: Embassy Bogotá should implement a schedule for regular
meetings between the community liaison office coordinator and the deputy chief of mission.

Informal Recommendation 26: Embassy Bogotá should implement a procedure so that Equal
Employment Opportunity and Federal Women’s Program information is provided in both
English and Spanish, is disseminated mission-wide, and is reviewed for accuracy at least twice a
year and updated as needed.




                                         57
                             SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                                                           Name                 Arrival Date
Ambassador                                                              P. Michael McKinley             09/10
Deputy Chief of Mission                                                      Perry Holloway             08/10
Chiefs of Sections:
  Consular                                                                    Raymond Baca             07/10
  Economic                                                                    Timothy Stater           07/09
  Management                                                                     Terry Leech           07/09
  Narcotics Affairs                                                               Dan Foote            08/09
  Political                                                                      Mark Wells            07/09
  Public Affairs                                                             Mark Wentworth            04/07
  Regional Affairs                                                              Juan O. Cruz           07/10
  Regional Security                                                            Robert Myers           07/10 2
Other Agencies:
  Department of Defense                                                   Col. Paul Murray             04/09
  Foreign Agricultural Service                                                Joseph Lopez             08/10
  Foreign Commercial Service                                         Margaret Hanson-Muse              07/07
  Homeland Security                                                             Luis Sierra           05/08 3
  Justice
       Bureau of Alcohol, Tobacco, Firearms,
  and Explosives                                                               Robert Clowers          05/09
     DEA                                                                         Jay Bergman           11/06
     International Criminal Investigative                                                              03/03
  Training Assistance Program                                                 Gary Sheridan
     Judicial attaché                                                        James Faulkner            07/09
     Justice Sector Reform Program                                                Paul Vaky            08/04
     Legal attaché                                                        Alejandro Barbeito           09/10
     Office of Overseas Prosecutorial                                                                  09/07
  Development, Assistance, and Training                                      Virna Santos
  Peace Corps                                                              George Baldino              07/10
  Treasury                                                                  Manny Muriel               05/10
  U.S. Agency for International Development                        Susumu (Ken) Yamashita              09/09




2
    Mr. Myers occupied the deputy regional security officer position from 07/09 to 07/10.
3
    Mr. Sierra occupied the assistant customs attaché position from 08/07 to 05/08.
                                                 58
                                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CGB             Colegio Gran Bretana
CNG             Colegio Nueva Granada
CNP             Colombian National Police
CSDI            Colombia Strategic Development Initiative
DCM             Deputy chief of mission
DEA             Drug Enforcement Administration
Department      Department of State
DIN             Dedicated Internet Network
EBO             Embassy branch office
EEO             Equal Employment Opportunity
EFM             Eligible family member
ESTH            Environment, science, technology, and health
FAST            First- and second-tour
FPU             Fraud prevention unit
HLPD            High-Level Partnership Dialogue
HR              Bureau of Human Resources
ICASS           International Cooperative Administrative Support Services
IM              Information management
IV              Immigrant visa
LE              Locally employed
MSRP            Mission Strategic and Resource Plan
NAS             Narcotics affairs section
NIV             Nonimmigrant visa
PAO             Public affairs officer
PAS             Public affairs section
PCHP            Plan Colombia Helicopter Program
PRM             Bureau of Population, Refugees and Migration
RSO             Regional security office
SMART           State Messaging and Archive Retrieval Toolset
USAID           U.S. Agency for International Development
WHA             Bureau of Western Hemisphere Affairs




                            59
                SENSITIVE BUT UNCLASSIFIED
              SENSITIVE
   SENSITIVE BUT        BUT UNCLASSIFIED
                 UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.



                           1
              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED
